<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]





 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                       WEDNESDAY, APRIL 29, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:20 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Susan M. Collins (chairman) 
presiding.
    Present: Senators Collins, Cassidy, Daines, Reed, 
Feinstein, Schatz, and Murphy.

 An Overview of the U.S. Department of Housing and Urban Development's 
             Efforts to Prevent and End Youth Homelessness


             opening statement of senator susan m. collins


    Senator Collins. The subcommittee will come to order. Good 
morning. We are starting this hearing much earlier than usual 
in an effort to accommodate those Senators who will be 
attending the joint session with the Prime Minister of Japan.
    Today's hearing addresses the issue of youth homelessness, 
and more specifically the Department of Housing and Urban 
Development's (HUD's) efforts to prevent and end youth 
homelessness. I am absolutely delighted to welcome our 
distinguished panel today, including Cyndi Lauper, who is a 
Grammy, Emmy, and Tony Award winning artist, who co-founded the 
True Colors Fund in 2008. This organization works to bring an 
end to homelessness among lesbian, gay, bisexual, and 
transgender (LGBT) youth. I had the great pleasure to have 
dinner last night with Cyndi, and I know her extraordinary 
passion for this issue.
    This effort also includes the True Colors Residence, the 
first project of its kind to provide a permanent, supportive, 
and secure home to homeless and formerly homeless LGBT youth in 
New York City. It includes a partnership with Federal agencies, 
five Federal agencies, to test strategies to prevent 
homelessness among LGBT youth. Representing the administration 
this morning is Jennifer Ho, Senior Advisor for Housing and 
Services to the Secretary of Housing and Urban Development. 
Prior to joining HUD she was a Deputy Director at the U.S. 
Interagency Council on Homelessness. Also joining us this 
morning is Deborah Shore, the Executive Director and Founder of 
Sasha Bruce Youthwork, which is one of the largest and most 
experienced providers of services to youth in Washington, DC. 
Ms. Shore is also the Chairman of the Board of the National 
Network for Youth, an advocacy organization that educates 
policymakers about the needs of homeless youths.
    And last, but certainly not least, the discussion of youth 
homelessness would certainly be incomplete without our hearing 
from those who have experienced homelessness firsthand. 
Brittany Dixon from Arbor, Maine is here today. She 
demonstrates what hard work and determination can achieve when 
a young person is given the opportunities and support to 
succeed, and that is what HUD funding helps to make possible 
for homeless youth across the country. I told Brittany this 
morning that her testimony is so important. We deal with a lot 
of facts and figures, but when you put a human face on the 
issue of homelessness, it makes all the difference. So thank 
you for traveling to Washington to share your story.
    According to HUD's 2014 Point in Time count, there are more 
than 194,300 homeless children and youth, representing nearly 
one-third of all the homeless population. Of that total, more 
than 45,000 were unaccompanied homeless children and youth, 
which is nearly 8 percent of the total homeless population. 
Eighty-six percent of these unaccompanied children and youth 
are between the ages of 18 and 24, with the remaining under the 
age of 18. Now, it is important to note that those figures 
reflect a single point in time. There are many more young 
people who find themselves homeless for a period of time 
throughout the course of the year that are not captured in that 
Point of Time survey. So that survey actually considerably 
understates the enormous number of homeless young people.
    In the year 2010, the administration published ``Opening 
Doors: Federal Strategic Plan to Prevent and End 
Homelessness,'' which set the goal of preventing and ending 
child, family, and youth homelessness by 2020. Successfully 
ending youth homelessness cannot be done with Federal funds 
alone. It requires cooperation and coordination across Federal 
agencies at all different levels of government, and in 
partnership with philanthropic and nonprofit organizations. To 
achieve this goal, we must understand how HUD's programs can be 
strengthened to better support homeless youth while operating 
within the unfortunately tight fiscal constraints that we face.
    I am proud to have joined Senator Patrick Leahy in 
sponsoring the Runaway and Homeless Youth Trafficking 
Prevention Act that regrettably failed to advance last week 
even though it received a majority of votes from the Senate. 
Our amendment would have reauthorized those critical prevention 
and treatment services that help homeless youth across the 
country.
    The three basic programs that are authorized by this law 
have helped thousands of young homeless men and women meet 
their immediate needs, and provided long-term residential 
services for youth who cannot be safely reunited with their 
families. I will continue to strongly advocate for the passage 
of this essential legislation.
    I have seen the importance of Federal funding in my home 
State of Maine in meeting the needs of unaccompanied youth. New 
Beginnings in Lewiston and the Preble Street Resource Center in 
Portland have used these resources to connect young people who 
need food, safe shelter, health services, and educational 
support with those who can provide those services. 
Opportunities exist for better collaboration among HUD, the 
Department of Education, and the runaway and homeless youth and 
child welfare programs of Health and Human Services. One such 
area is coordinating Federal policies and guidance around the 
housing needs of youth who are aging out of the foster care 
system and then find themselves homeless.
    There are other areas where stronger coordination is 
needed, and I look forward to hearing the suggestions and 
advice of our witnesses. Again, I am proud to welcome our great 
panel of witnesses and look forward to hearing from them.
    I now would ask Senator Reed, who has been such an advocate 
for the homeless for so many years, to give his opening 
statement.


                     statement of senator jack reed


    Senator Reed. Well, thank you, Chairman Collins, for 
holding this important hearing today and also for your tireless 
efforts to help youth homelessness. And let me also thank the 
distinguished panel of witnesses. We have a very diverse and 
talented lineup of witnesses today, and they share a common 
commitment to youth homelessness. It is a commitment that we 
share, Senator Collins and I.
    Cyndi Lauper is a Grammy, Emmy, and Tony Award winning 
artist, although it is ``Sylvia,'' is it not really?
    But we will use ``Cyndi'' today. She is the co-founder of 
the True Colors Fund and a passionate advocate of homeless 
youth, particularly for young adults living on the streets who 
are lesbian, gay, bisexual, or transgender. Thank you for your 
great efforts. Thank you very much.
    I also want to recognize the work that you have done along 
with Senator Collins on the Runaway and Homeless Youth Act to 
ensure that we have protection for LGBT homeless youth. And as 
Senator Collins noted, last week's amendment fell a few votes 
short, but she is determined, which means she will succeed, in 
getting this legislation passed.
    Ms. Shore, thank you. You are another champion for 
improving the homeless, runaway, abused, and neglected youth. 
Congratulations on the 40th anniversary of the Sasha Bruce 
Youthwork and the positive impact you have made here in 
Washington. Thank you so much. And Ms. Ho joins us from HUD 
where she is working to implement Opening Doors, the Federal 
Strategic Plan to prevent and end homelessness, as well as 
group coordination among Federal agencies. Thank you very much. 
We are particularly pleased to have Brittany Dixon here. 
Brittany, you will speak with great sincerity and great power, 
and we know you are going to do a terrific job. So, in fact, 
after you we are just going to rest our case and go home, okay?
    Your voice and the voice of other youth that have been 
affected by homelessness is much more powerful than many of the 
words that we utter here. So thank you all.
    Homelessness is not just an urban problem. It is not a red 
State problem. It is not a blue State problem. It happens in 
every State, and it happens to scores and scores of too many 
young people. In Rhode Island, we are the smallest State. We 
have a very small population. We have about 986 young people 
who utilized the shelter system last year. That is not the 
homeless population. That is just those that could get access 
to shelter. And as a result, we have a problem in Rhode Island, 
but as I said, it is in every part of the country.
    We want, I think we all do very sincerely, every child to 
have a safe, stable, home, food, healthcare, and education, a 
chance to build a better life for themselves, and frankly it is 
the future of our country overall. And we cannot afford to let 
these young people fall through the cracks or let their talents 
to go to waste. So I was very proud to work with Chairman 
Collins last year on the HEARTH Act. That bill made important 
changes to HUD's homeless program, including expanding 
assistance to more youth and families at imminent risk of 
losing their housing while fleeing a dangerous situation. It 
also required a plan to end homelessness and demanded 
coordination among Federal agencies to implement it.
    We have made progress in reducing homelessness, 
particularly among veterans and chronic homelessness, but we 
still have a lot of work to do, especially in understanding and 
addressing youth homelessness. We must continue to learn and 
innovate, and ask ourselves how we can do a better job. This 
hearing is an opportunity to learn. It is an opportunity to 
increase our insights and to marshal our forces to go forward 
and work harder.
    We know that there are young people on the street. We know 
that they are resilient, but we know that there is a limit to 
resilience, that they have to have the chance. And if we do 
well by them, I am confident they will do well by us. So let us 
push forward to see if we can find safe housing, healthcare, 
all those assets that will give people a chance to use their 
talents in the country.
    Let me conclude by simply just saying as Senator Collins 
has spoken about, some of this is increased and better 
coordination. Some of this is resources. A lot of it is not 
losing sight of what we must do together collectively. So thank 
you very much, and I look forward to your testimony.
    Senator Collins. Thank you very much, Senator Reed. I am 
going to be submitting for the record testimony from Senator 
Heidi Heitkamp. Her sister runs the only shelter in North 
Dakota that is devoted to runaway and homeless youth, and she 
has been such a strong advocate in this area. So without 
objection, her testimony will be submitted for the record.
    [The statement follows:]
              Prepared Statement of Senator Heidi Heitkamp
    I want to first thank Chairwoman Collins for providing me the 
opportunity to submit testimony today on behalf of what is oftentimes a 
voiceless population, the homeless youth of North Dakota and from 
around the country. This hearing that Chairwoman Collins and Ranking 
Member Reed have called for today focuses on an issue that must be 
solved, youth homelessness has the potential to lead to even greater 
victimization down the road for many of these young men and women if we 
don't get this right. Frankly, the issue of youth homelessness is a 
national embarrassment and we should be doing everything we can to 
prioritize this issue and bring all of our children back in off of the 
streets.
    The issue of addressing and eliminating youth homelessness is a 
priority for me, but is also a deeply personal issue for me in North 
Dakota. One of my sisters runs the only organization in the State of 
North Dakota, Youthworks, that focuses exclusively on providing 
services to runaway and homeless youth and at-risk kids in North 
Dakota's two largest metropolitan areas--Fargo-Moorhead and Bismarck-
Mandan. So I have heard the stories, and continue to hear the stories 
to this day, not just of the homeless youth and their experiences but 
also of the struggles that organizations serving this population 
continue to have in terms of funding and resources to address the 
numerous challenges of providing shelter and a path forward out of 
homelessness for many of these young boys and girls. A consistent 
narrative through the years that I've taken away when hearing these 
stories, is that it is difficult to separate the issues of runaway and 
homeless youth for many of these young people, because oftentimes they 
are homeless either because they have runaway from a bad situation or 
they have been thrown away by their parents and families.
    While North Dakota continues to be a national economic success 
story and we continue to see an influx of people to the state looking 
to take advantage of our booming economy, one of the oftentimes 
forgotten stories of this prosperity is that we have seen an increase 
in the number of runaway and homeless youth in the State. Casework for 
runaway and homeless youth is up at both the Fargo and Bismarck 
Youthworks locations, and I have heard similar stories from social 
service organizations and law enforcement throughout the State. Another 
disturbing trend is that while Native Americans make up less than 10 
percent of the population in North Dakota, we've seen some reports 
where up to thirty percent of the homeless youth population in a given 
area are Native American. As disheartening as these statistics are, 
they not even begin to take into account the number of runaway and 
homeless youth in North Dakota's Indian Country.
    Determining the number of runaway and homeless youth in this 
country is a notoriously difficult exercise. I have seen numbers 
ranging from 550,000 to well over two-million. This tells me two 
things, that we need to figure out a better and more comprehensive way 
to count this population in order to truly understand the magnitude and 
breadth of the problem and that regardless of which number you use we 
have an unacceptable number of runaway and homeless youth in this 
country. They are on the street because of substance abuse and 
addiction, physical and sexual abuse, or just plain ignorance and 
intolerance on the part of their parents or guardians. Many of these 
young people don't know what it means to be loved unconditionally, 
where they're sleeping the next night, or when their next meal will be. 
We can and we must do better.
    The reasons for youth homelessness are many, but one of the most 
disturbing trends is the number of LGBT runaway and homeless youth that 
we are seeing across the country. LGBT youth are reported to make up no 
more than 10 percent of the youth population, yet they account for 
around 40 percent of the homeless youth in this country. LGBT homeless 
youth have already been marginalized by their parents, families, and 
other parts of their communities, they have been ``thrown away'' 
because of who they are or how they identify. This issue seems to know 
no State boundaries, as we see these same patterns holding true in 
across the country, including North Dakota. LGBT youth have already 
been marginalized and labelled as ``different'' before they even become 
homeless. Many of these young people are forced into ``survival sex'' 
just to find their next meal or a bed to sleep in, making them even 
more susceptible to sexual violence and sex trafficking. We need to 
show our LGBT homeless youth that someone does love them, that someone 
does value them, and we must do whatever it takes to ensure that all of 
our homeless youth have access to and are provided the same services 
and protections regardless of their sexual orientation or identity.
    All is not lost though, with great champions and fierce advocates 
for runaway and homeless youth like Chairwoman Collins I am convinced 
that we can make a difference. I worked very closely with her recently 
as we tried to pass the Runaway and Homeless Youth Trafficking 
Prevention Act in the Senate. Her intensity and passion for this issue 
is unmatched, and I believe that working together, along with our 
colleagues in the Senate and our friends in the social service, 
healthcare, education, and religious communities, we can provide hope 
and a future for our homeless youth.
    Programs and funding for homeless youth are some of the best 
investments that we can make. All too often in Washington and in State 
government we tend to be reactive, pouring money and resources into 
rehabilitation, recovery, and incarceration. While these methods will 
continue to be important pieces of addressing larger societal problems, 
let's start being proactive and investing heavily in preventive 
measures and early intervention. Let's provide appropriate resources 
and a path forward for some of our most vulnerable. Let's make this a 
national priority and let's end youth homelessness in this country.

    Senator Collins. Normally we would go straight to our 
witnesses, but given the constraints that Senators had this 
morning and requests I have had, I am going to give an 
opportunity for very brief opening statements. I know Senator 
Feinstein had asked to be recognized, so we will call on all 
the members who are here if they want to offer brief opening 
statements. Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Madam Chairman, and 
let me thank you and Senator Reed for the work that you have 
done on this. This is an issue that really is not often brought 
to the floor in the way it should be. I represent a State that 
is nearly 38 million people where the present collection 
methodology, I believe, does not well represent the actual 
numbers, and I just want to say that directly.
    I have been doing what I have been doing now as a mayor, as 
a locally elected person, as a Senator for more than 40 years, 
and I think I know my State. The figures for California 
according to HUD are 25,094. According to the Education 
Department they are 259,656. That is bigger than many 
populations of entire major areas.
    My California staff goes to the shelters. They report to 
me. I take a look when I can. I talk to people who deal with 
the problem, and I have become convinced that these numbers do 
not accurately reflect children in California that are 
homeless. So what I want to do is, we have a bill which we have 
submitted which is for another day with Senator Portman, and I 
just want to ask you to please take a look at this. I would 
appreciate receiving any testimony on California that anybody 
has to give. And I would like to add to the record a chart 
which shows the disparity between the Department of Education 
and the Department of Housing and Urban Development in the size 
of the homeless youth population in every State.
    Senator Collins. Without objection.
    [The chart follows:] 


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 

    Senator Feinstein. Thank you for the privilege.
    Senator Collins. Thank you. Senator Cassidy, do you have 
any opening comments?
    Senator Cassidy. No.
    Senator Collins. Senator Schatz. Senator Murphy.
    Senator Schatz. No.
    Senator Murphy. No.
    Senator Collins. Thank you very much. We are delighted to 
call on our first witness, Cyndi Lauper.
STATEMENT OF CYNDI LAUPER, TRUE COLORS FUND CO-FOUNDER, 
            GRAMMY, EMMY, AND TONY AWARD-WINNING ARTIST
    Ms. Lauper. Good morning. Sorry, okay. Good morning, 
Chairman Collins, Ranking Member Reed, and distinguished 
members of the subcommittee. I am Cyndi Lauper, and I am the 
co-founder of the True Colors Fund, which works nationally to 
end homelessness among lesbian, gay, bisexual, and transgender 
youth, and it is really an honor to be here with you guys. It 
is good to be a voice for the homeless youth who have no voice, 
so thank you for hearing me.
    I myself was a homeless youth as a teen. I could have lost 
my future, but I was lucky. I was one of the lucky ones. I 
found a youth hostel that helped me and directed me to getting 
a GED and get back into society, into the system, and I was 
fortunate. I was just blessed because I found that doorway back 
in. I do not know what my life would have been like without art 
or music. I certainly do not know what my life would have been 
like without ``Girls Just Want to Have Fun'' and ``True 
Colors.'' And through my travels I have met many people who 
have come up to me and talk about being disenfranchised from 
their life--from life because they are LGBT and who found 
solace in these songs. And after listening to these stories, it 
changed me, and I decided that maybe there is something I can 
do besides just being a famous person and singing to them. So 
here I am.
    Here is what I know. We have done a lot of information 
because I felt we should not just have the charity--just have a 
charity. So we went out to research because once you have the 
information, then you can act accordingly and not spin your 
wheels, you know. Do not waste money. Do not waste your time. 
Go find what you have to do and move forward, and we were very 
fortunate.
    What we found out is say in any given year there are 1.6 
million kids, right, that are on the street that are homeless, 
and that is in the whole country, right? So up to 40 percent of 
these kids are LGBT, or to put it very much like regular people 
understand, gay or transgender, okay? Now, these kids, if you 
look at the whole country, only up to 7 percent of American 
youth identify as gay or transgender, right? But yet the 
homeless population has up to 40 percent, so you can see the 
disparity, and you can see there is something bigger at play 
here.
    Basically, the kids come out and get thrown out, you know. 
And it is just--or they run away because they feel unsafe or 
unwanted. And I ask you, is that acceptable? I say no, and no 
young person should be left without a home because of their 
sexual orientation or their gender identity. The truth is they 
did not choose their identity, you know. It is like you 
choosing the color of your eyes, you know. You are born that 
way, and these are kids.
    Keep in mind these are kids from the age of 12 to 24, and 
they are trying to survive in the street, which is hard for 
grownups to do. Now, if you are a kid and you are different, it 
leaves you vulnerable to a lot of things, including 
trafficking, okay? And they are looking for a way to come back 
in and be productive citizens. It seems to me that if kids are 
our future, we should invest in kids because they are going to 
be the next doctors, lawyers, the people who are going to cure 
cancer, the people who are going to fix the Earth's problems. 
And if we do not invest in them, we do not invest in ourselves, 
and that is a problem because we cut ourselves off at the 
knees. And to compete in the world, we have to have our youth.
    And these kids that are in--these kids that are in these 
situations which we have gone out and researched, we have found 
that there is--we have also partnered with HUD because in our 
research we found out what government agencies are doing and 
what. And then we have been working on putting people together, 
and we have worked with HUD on prevention because the way that 
we can help--truly help is through prevention. So that would 
include, you know, looking at helping the families, fixing the 
child welfare system, our juvenile justice system, and our 
schools. Obviously, you guys have been working on this. But 
this is what we see that needs to happen because honestly, one 
of those doorways is going to lead to homelessness or a future.
    All right. I want to talk about this one. We see that this 
actually works because we have partnered with HUD on the LGBTQ 
Youth Homelessness Prevention Initiative, and we have seen what 
is happening in Cincinnati and Houston. Now, these counties 
were chosen because one is a small kind of county and one is a 
larger county. One has--Jennifer, maybe you can help me. One 
has an infrastructure that has a youth homeless infrastructure, 
and the other one not so much, so this kind of represents the 
counties across our country.
    So what we learn from this initiative will enable us to 
make a blueprint of an initiative that could go across the 
whole country if it works, and we are seeing that. It is 
working. And we have learned the five key things that these 
kids need by working with the different service providers and 
traveling to talk to them, and the one thing is stable housing, 
education and job training, a sense of social and emotional 
wellbeing, and permanent connections that provide stability, 
the same thing any grownup would need. And the True Colors Fund 
is dedicated to finding what works. That is important.
    We have to build a network of these programs that move us 
from just a crisis response center to long-term solutions. But 
the committees and the service providers need funding to put 
them in place and someone to speak up for them. That would be 
me. That would be you. So I am here.
    I want to give you a few more facts before I turn this over 
to Jen, who we have been working--Jennifer Ho who we have been 
working closely with. In particular, HUD can test programs. 
They need appropriation funding so they can test programs and 
systems targeted in communities to figure out what should be 
then replicated across the country. I said that. And the more 
we learn about these kids, the more we help them. And, again, 
remember we are talking about kids from 12 to 24 years old. I 
want to always remember they are kids.
    Government advocacy--government advocacy groups, 
researchers, private funders, and social providers need to work 
together to find solutions that give these kids their options 
back. And we know that because we have seen it work. And we 
need a comprehensive national system that is inclusive of all 
young people. LGBT youth are in the homeless population in 
numbers greater than the other kids. So if you have a bigger 
population of a group of kids, you have to learn about them to 
help them; otherwise it is a revolving door. You are spinning 
your wheels and you are spending money for what? Nothing. The 
more you learn about it, the more you talk to each other, the 
more you can accomplish and move forward.
    So I want to appeal to the 43 Senators that voted no on 
the--on the bill that Senator Leahy had put forward. Let me get 
the proper name because I do not want to--here it is. The 
Runaway Homeless Youth and Trafficking Prevention Act, which 
failed last week. I just want to appeal to the 43 Senators who 
voted no to change their minds because if you are going to 
reject these kids, and there are quite a few--you are going to 
reject a lot of our kids.
    Kids are our future. What are we doing? Playing Russian 
roulette? We got to help the kids, or we ain't going to help 
ourselves. That is in common language. I realize you guys read 
speeches. If it is a faith issue, I want to implore you not to 
pray to God to change your kid. I am a mom. Pray to God to 
change your heart so you can love and help your kid.
    And you know we got to do better because these kids, they 
can be our future. They can live in a country where we can 
stand up for them, and then when we need them they will be 
there for us. And if we provide funding to turn the solutions 
that work into a reality because we are studying solutions 
here, right, then we are going to be better and stronger as a 
country, a country that it was founded to be.
    So please help the kids. They are kids. We are adults. 
Thank you.
    [The statement follows:]
                   Prepared Statement of Cyndi Lauper
    Good morning, Chairman Collins, Ranking Member Reed, and 
Distinguished Members of the Committee. I'm Cyndi Lauper, Co-Founder of 
the True Colors Fund, which works nationally to end homelessness among 
lesbian, gay, bisexual, and transgender youth.
    I would like to begin by expressing my appreciation to Chairman 
Collins for holding today's hearing and for your unwavering leadership 
on behalf of homeless youth in your great state of Maine and across the 
country. It has been an honor to work with you in your role as a lead 
sponsor of the Runaway and Homeless Youth and Trafficking Prevention 
Act, which would reauthorize and make important improvements to the 
Runaway and Homeless Youth Act. While last Wednesday, the legislation 
failed to pass the Senate, I look forward to working with you to 
continue to build support for its eventual passage.
    It is an honor to be here and to be a voice for homeless youth who 
too often go voiceless. And since I have a big voice, I thought I could 
use it for these kids. I, myself, was homeless too young as a teen. I 
could have lost my future, but I was lucky. I found a youth hostel that 
helped me and put me on the road to getting a GED and back into 
society. I found a doorway back in.
    I don't know what my life would have been like without art and 
music. It certainly would have been different without ``Girls Just Want 
To Have Fun'' or ``True Colors.'' And everywhere I go, I hear from 
those who have been disenfranchised from life and find solace in those 
songs. I don't know what my own life would be like if I didn't hear 
from people who were affected by these songs. It changed me. And it 
made me want to get involved.
    There are 1.6 million youth who have been disenfranchised from 
their lives. 1.6 million youth who did not choose to be homeless, but 
had the choice made for them by life's circumstances. 1.6 million youth 
who are on the street in search of a doorway back in.
    Up to 40 percent of all homeless youth in America are LGBT, yet 
only 7 percent of the overall youth population is LGBT. So you can see, 
there is a bigger problem at play. These kids come out and get thrown 
out--or they feel unsafe and run away. It's unacceptable. No young 
person should be left without a home because of their sexual 
orientation or gender identity. They didn't choose their identity and 
they are trying so hard to be brave--to survive. Remember, we are just 
talking about kids from 12 to 24 years old. They need adults to help 
them by protecting them.
    We can end youth homelessness in America, but we have to get to the 
root of the problem. Our country must invest in preventing kids from 
becoming homeless in the first place, and this is an area of focus that 
has largely been ignored. That means helping families. It means fixing 
our broken child welfare system, our flawed juvenile justice system, 
and our schools. Each one of those places can be a doorway to 
homelessness or to a better future.
    In an effort to start to determine the best prevention strategies 
to invest in and replicate across the country, the True Colors Fund is 
partnering with the Department of Housing and Urban Development (HUD), 
as well as the Departments of Education, Health and Human
    Services, and Justice, and the U.S. Interagency Council of 
Homelessness on the LGBTQ Youth Homelessness Prevention Initiative. The 
Initiative is taking place in two communities--Houston/Harris County, 
TX and Cincinnati/Hamilton County, OH. Both communities built cross-
sector coalitions that developed local, community-wide prevention 
plans, which they started implementing in the fall of 2014. What we 
will learn from both communities over the next year and a half can--and 
must--inform our national strategies as we begin to invest in and put 
greater value on prevention.
    Homeless youth spend their days on the streets and draw straws for 
beds at night. But they need more than beds. When I needed more than a 
bed, I got it--and I got my future back. We must give these kids stable 
housing, but also education and job training. We need to protect their 
social and emotional well-being, and give them permanent connections 
and some stability. The True Colors Fund is dedicated to making that 
happen and figuring out what works.
    Through a broad continuum of public education and engagement, 
advocacy and public policy, youth collaboration, research, and 
community building programs, the True Colors Fund is working in 
partnership with our friends across multiple sectors to build a 
comprehensive national system that values prevention, early 
intervention, crisis response, and permanency equally.
    It is important that we build a network of programs across the 
country that moves us from just crisis response to long-term solutions. 
But communities and service providers need funding to put them in 
place, and they need someone to speak up for them--so here I am. In 
particular, funding needs to be appropriated so HUD can test programs 
and systems in targeted communities to figure out what should then be 
replicated across the country. The more we learn about what works, the 
more we can do for these kids.
    These are kids--we can't ignore them. They could be our next 
doctors, lawyers, or senators. If we ignore them, their options are 
chronic homelessness, suicide, or being trafficked. Those are not 
options. Government, advocacy groups, researchers, private funders, and 
service providers need to work together to find solutions that give 
these kids their options back. We need to study and invest in long-term 
solutions for prevention and for moving homeless youth to independence.
    And we need a comprehensive national system that is inclusive of 
all young people. LGBT youth are in the homeless youth population in 
numbers much greater than other kids, and we have to meet their unique 
needs. The Runaway and Homeless Youth and Trafficking Prevention Act, 
which failed to pass the Senate last week, would be an important first 
step. Included in the bill is a nondiscrimination clause that would 
ensure all youth, including LGBT youth, are treated with dignity and 
respect when accessing programs receiving funding through the Runaway 
and Homeless Youth Act.
    I want to appeal to the 43 Senators who voted ``no'' to change 
their minds. It is wrong to reject these kids. It is wrong for the kids 
and for society. We want everyone to grow up to be a productive adult. 
That's been the whole goal of this bill.
    Imagine you are a parent of one of these kids.
    And to those parents, as a parent myself, I say, please--love and 
accept your child for who they are. If you reject them, you may never 
be able to repair the damage. If it is an issue of faith--I implore you 
not to pray to God to change your child, but pray to God to change your 
heart.
    We must do better. I never thought I'd be anyone. But I did become 
someone. And these kids can too, if we do our jobs. If we speak up for 
them and talk to each other . . .  If we learn from the models that are 
already working and invest in getting answers to the questions we still 
have . . .  And, if we provide the funding to turn the solutions that 
will work into reality, we will be better as a country--a country in 
which each of us fulfills our dreams.
    Thank you again for inviting me here today. I look forward to 
answering your questions.

    Senator Collins. Thank you very much, Cyndi, for your 
testimony. Ms. Ho.

              Department of Housing and Urban Development

STATEMENT OF JENNIFER HO, SENIOR ADVISOR FOR HOUSING 
            AND SERVICES TO THE SECRETARY OF HOUSING 
            AND URBAN DEVELOPMENT
    Ms. Ho. Chairman Collins, Ranking Member Reed. I did it, 
too.
    Ms. Lauper. I know.
    Ms. Ho. Members of the subcommittee, I am Jennifer Ho, HUD 
Secretary Castro's senior advisor. Thank you for this 
opportunity to testify on the Federal perspective on ending 
youth homelessness. I am honored and humbled to testify 
alongside these three women. I would like to commend the work 
that both Cyndi and Debbie have done for vulnerable youth, but 
I am especially honored to sit next to you, Brittany, whose 
experience will provide invaluable insight. It is my hope that 
in this environment of scarce resources we can continue to 
leverage partnerships across the Federal Government and with 
organizations like those represented here today.
    The opportunity to speak to you is unique. You understand 
HUD's resource constraints in a way that many do not. You 
grapple with the same issues that we do. How do we provide 
housing and homelessness assistance to the millions of people 
across the country who need it using the finite resources that 
we have available? You understand how critical it is to 
leverage those finite resources in the most effective ways, 
including prioritizing people for the right interventions and 
targeting resources to those who need them the most. In short, 
you appreciate the fact that at this moment in time with the 
right investments, we stand at the precipice of not just 
managing homelessness, but ending it.
    Like you, the Obama administration--we have that commitment 
to end homelessness, and it is for everyone, including youth 
and young adults. In 2010 I helped write ``Opening Doors: The 
Federal Strategic Plan to Prevent and End Homelessness,'' which 
includes the goal of ending youth homelessness by 2020. We then 
developed a framework to end youth homelessness, and we are 
working with urgency to understand the magnitude of the problem 
and to create the right strategies to solve it. Every single 
young person demands this of us.
    So here is what we are doing. First, we are collecting 
better data on homeless youth. We are fostering partnerships to 
better count youth. In the Point in Time count we now require 
communities to report data specifically for young adults ages 
18 to 24, acknowledging this is a unique period in the 
transition to adulthood. We are working to get an annualized 
count of youth experiencing homelessness by integrating our 
data systems with the Department of Health and Human Services 
(HHS) and fostering better integration of HHS-funded youth 
programs into our Continuums of Care.
    But we cannot wait for perfect data in order to take 
action. So second, we are improving the strategies to end youth 
homelessness, and we are working across all of HUD to do so. 
Youth will be a priority in this year's Continuum of Care (CoC) 
Competition, including increased incentives for collaboration 
between youth providers and COCs. We are requesting $20 million 
for the Family Unification Program in our 2016 budget, and 
extending the timeframe that young adults can use those 
vouchers, leveraging the pilot that you created in 2015. We are 
working with Cyndi in Houston and Cincinnati on homelessness 
prevention for lesbian, gay, bisexual, and transgender youth. 
We recently released guidance on preventing discrimination 
against transgender individuals in homeless shelters.
    But the work that HUD is doing to end youth homelessness is 
not just through targeted demonstrations or set asides. HUD 
serves young people in almost every major program that you 
fund. That includes over $200 million through our Continuum of 
Care and Emergency Solutions Grant Programs, and nearly 60,000 
households headed by a young adult in our Housing Choice 
vouchers and public housing programs. And we serve young people 
with a diverse set of challenges.
    I especially need to make one point because there is a 
misunderstanding about our definition of ``homelessness,'' 
which could mean that youth do not get referred to the programs 
for which they are eligible. Nobody, including youth and 
families, should ever have to sleep on the streets, or in a 
car, or in a place where they are being abused or trafficked 
period. If a young person is trading sex for a place to sleep 
at night, she qualifies for our programs. If a young person is 
staying with a friend but is being kicked out at the end of the 
week, he qualifies for our program.
    The unfortunate reality is that even though there are tens 
of thousands of youth experiencing homelessness every day, 
there are not enough resources to serve them. For this reason, 
we think communities should target their resources to youth 
that are sleeping on the streets, in emergency shelters, or who 
are otherwise in harm's way. But we also must continue to fight 
for additional funding, including investments in the 
President's budget proposal.
    We all agree that no youth or young adult should ever 
experience homelessness, and when it happens, every youth needs 
a safe place to stay and the right help moving forward. It is 
my belief that with the right investments, the right 
strategies, and the right targeting, we can, in fact, end youth 
homelessness in 2020. So on behalf of Secretary Castro, the 
whole HUD team, and my Federal partners, thank you for this 
opportunity to testify.
    [The statement follows:]
                   Prepared Statement of Jennifer Ho
    Chairman Collins, Ranking Member Reed, and Members of the 
Committee, thank you for this opportunity to discuss the Department of 
Housing and Urban Development's (HUD) efforts to meet the Obama 
administration's goal of ending youth homelessness, and how HUD is 
working alongside the U.S. Interagency Council on Homelessness (USICH), 
other Federal partners including the Departments of Education (ED) and 
Health and Human Services (HHS), and communities across the country to 
prevent and end youth homelessness in the United States.
                              introduction
    I am Secretary Castro's Senior Advisor and point on ending 
homelessness, an issue that is a top priority for him and for this 
Administration. At HUD, we are deeply committed to this effort and 
there is a HUD-wide team devoted to the work on homelessness. Many 
members of the HUD team have backgrounds in the local homeless 
assistance world prior to coming to HUD and we bring this experience to 
the work that we do every day.
    I came to Washington, DC, in 2010 after 11 years running a non-
profit in Minnesota called Hearth Connections, a program that created 
supportive housing options for single adults, families, and youth 
experiencing homelessness. It was while I was there that I saw first-
hand the challenges that young people experiencing homelessness face in 
their transition to adulthood. Most of the young adults that came into 
our programs had experienced incredible trauma and had survived 
horrendous circumstances. We were able to provide them a safe and non-
judgmental place to call home, allowing them to simply be teenagers 
moving into their twenties. For a young person who lacks a supportive 
family environment and a stable place to call home, getting your feet 
on the ground can be impossible. Those of us who have worked in this 
field know the difference that the stability of a home, coupled with 
the right types of supports, can make in the lives of youth and young 
adults experiencing homelessness.
    Once in DC, I began to see how those on-the-ground challenges that 
I witnessed in Minnesota were playing out on the Federal stage. How 
youth need choices that include a variety of interventions that can 
address their circumstances. How it was difficult to craft policy 
responses at the Federal level without a shared national vision for 
what was needed to end youth homelessness, and how important it was to 
develop a comprehensive strategy for measuring, addressing, and 
preventing homelessness. I am pleased to testify here today about the 
action we have taken to meet these goals and make real progress towards 
ending youth homelessness.
       opening doors and the framework to end youth homelessness
    When Opening Doors: Federal Strategic Plan to Prevent and End 
Homelessness was released in June 2010, the Administration made a 
commitment to prevent and end homelessness among families, youth \1\ 
and children by 2020. That commitment accompanied the shorter-term 
goals of ending chronic and Veteran homelessness. The goal of ending 
homelessness for youth was set on a longer timetable than those 
strategies needed to end chronic homelessness, where a large body of 
research exists. We also knew that there were fundamental gaps in our 
understanding of the prevalence of homelessness among youth. In order 
to get a better understanding of these populations, we would need to 
work across Federal agencies to develop a path forward.
---------------------------------------------------------------------------
    \1\ In Opening Doors, and for the purposes of this testimony, 
unless otherwise clarified, when we state the term ``youth,'' we mean 
unaccompanied youth and young adults (including young adult head of 
households) through the age of 24.
---------------------------------------------------------------------------
    Following the release of Opening Doors I co-led an effort to tackle 
that challenge. Seven Federal agencies--including HUD--were convened 
along with community stakeholders to develop a roadmap for preventing 
and ending youth homelessness. This roadmap, known as The Framework to 
End Youth Homelessness, was ratified by the full USICH Council, and 
included two key strategies that remain at the heart of what we must 
achieve if we are to effectively prevent and end homelessness among 
youth:
  --Achieving better national data on unaccompanied youth and young 
        adults; and
  --Improving the capacity of programs and systems working to end youth 
        homelessness.
    However, our progress to end youth homelessness and carryout these 
strategies will be hindered if Congress limits HUD's ability to target 
its funding to youth or expands overall eligibility for our programs. 
Either of these two changes would overload already-stretched 
homelessness systems and likely result in a marked increase in street 
homelessness. Currently, HUD's Continuum of Care program funds 
approximately 251,000 units with related supportive services, not 
nearly enough to house the 578,424 people, including youth, that were 
living on the street, in shelter or transitional housing on a given 
night in January 2014. Expanding the definition of homelessness will 
make these already limited housing and supportive services resources 
even scarcer, especially for persons--including youth and young 
adults--living on the streets, in an overnight shelter, or living in 
unsafe situations to avoid a night in one of these locations.
    Though changing the definition would be harmful, the intensified 
debate about the definition over the past year has been helpful in 
bringing light to several areas where HUD can improve our existing work 
and communication with key stakeholders. We know that by working 
together we can address the important concerns that have been raised, 
and meet our shared vision of ending youth homelessness without 
expanding the definition of homelessness or preventing HUD from 
strategically targeting funding. The remainder of this testimony 
outlines key actions HUD has taken and plans to take in this regard.
    improving national data on unaccompanied youth and young adults
    Measuring homelessness among youth has been a long-standing 
challenge, and with the release of Opening Doors we knew it had to 
improve. HUD has two principal ways in which it collects data on people 
experiencing homelessness: a snapshot through the annual point-in time 
count, and longitudinal information about the people who touch the 
homeless services system collected through Homeless Management 
Information Systems (HMIS). Both of these methods pose challenges to 
accurately counting youth experiencing homelessness. These two 
information collection methods, and all studies and information 
collections mentioned within this testimony are covered under the 
Paperwork Reduction Act, and published in the Federal Register 
periodically for public comment.
    Before tackling the problem of insufficient data collection on 
youth, HUD first had to decide exactly what we meant by the term 
``youth'' because, historically, HUD had only defined youth to be 
unaccompanied persons under the age of 18. After consultation with 
Federal partners and public comment, in 2012 HUD expanded the term 
``youth'' to mean any person under the age of 25, including parenting 
youth and young adults.
    Youth experiencing homelessness are often not connected with 
services or shelters frequently due to limited local resources, and--
the providers serving homeless youth are not participating in the local 
HMIS--and they therefore have not been included in HMIS data reported 
to HUD. Young people also are not necessarily found sleeping in 
encampments under the highway overpasses or in emergency shelters--or 
in the usual places where many communities look for adults experiencing 
homelessness. Instead, many youth do everything they can to avoid those 
situations, including couch-surfing in dangerous situations, or even 
resorting to trading sex for a place to sleep. To improve our data, we 
knew we would have to provide more guidance to communities and partner 
with experts in serving this population.
    Our first step was a collaboration with USICH, HHS, and the 
Department of Education on a place-based effort to improve 
methodologies for counting homeless youth, an effort we called Youth 
Count! The lessons that we learned from Youth Count! informed new 
point-in-time count guidance we provided to all communities in 2014 and 
2015. In addition to clearer and more comprehensive guidance, in 2013 
HUD began requiring communities to distinguish between youth under the 
age of 18, young adults aged 18-24, and adults 25 and over. While we 
know it is still not complete, we are beginning to see a clearer 
picture than we did in 2010 about the prevalence of homelessness among 
youth and young adults. As communities improve and refine their 
methodologies we expect that data collection through the point-in-time 
count will continue to improve, and over the next several years, we may 
even see the point-in-time count for youth increase.
    Our second step was to improve data collection in HMIS. In 
partnership with HHS, HUD worked to ensure that the data we require 
communities to collect was aligned with the standards used by HHS for 
its Runaway and Homeless Youth (RHY) program. We are also working 
together to encourage collaboration between youth-serving providers and 
the larger local community homeless services system. The result of this 
collaborative effort was the integration of the RHY management 
information system (RHYMIS) with HMIS at both the national and local 
levels. Just this month, youth providers funded through RHY began 
entering data into HMIS, which is giving HUD, HHS, and communities much 
better information about homeless youth and the programs they use.
    Both the point-in-time data and data collected through HMIS are 
reported annually in the Annual Homelessness Assessment Report to 
Congress (AHAR). As we improve our data collection on youth, you will 
see this improvement reflected in the AHAR. These data help us to 
understand at the local and national levels what our systems look like 
and help us to benchmark progress. However, these are not the only data 
we use to fully understand the complex dynamic of homelessness--
particularly for youth and young adults-- and how the systems are 
functioning. We rely on numerous data sources, including program data 
from HHS, the Department of Education and other Federal agencies, as 
well as the American Housing Survey, which captures information about 
doubled up households and worst-case housing needs. We encourage 
communities to use their Housing Inventory Counts, HMIS data and other 
relevant data sets to measure progress and performance locally as well.
                   what the most recent data tells us
    The interim step between improving the data and improving the 
capacity of the systems that serve them is painting an accurate picture 
about the scope of youth homelessness. We can do this by knowing the 
number and characteristics of youth experiencing homelessness as well 
as by understanding the impact of the resources already in place to 
serve them. While we acknowledge that the data we have currently is not 
perfect, by combining data from multiple sources we can gain a much 
better understanding of the number of youth experiencing homelessness 
and the targeted interventions that will end their homelessness.
    The most recent point-in-time count estimated that there were 
45,205 unaccompanied homeless youth, most (38,931) of whom were between 
the ages of 18 and 24, on a single night in January 2014. Nearly 6 in 
10 unaccompanied homeless youth under the age of 18 were living in 
unsheltered locations, and 46 percent of youth aged 18-24 were 
similarly unsheltered.\2\
---------------------------------------------------------------------------
    \2\ Https://www.hudexchange.info/resources/documents/2014-AHAR-
Part1.pdf.
---------------------------------------------------------------------------
    While there is a body of research that acknowledges the prevalence 
of family conflict for those young people who become homeless, it is 
less clear about the precipitator for these particular families. The 
research doesn't yet tell us with precision the catalyst that causes 
youth and young adults to separate from their families and find 
themselves doubled-up, couch surfing, trading sex for a place to stay, 
or living on the streets.
    Recent studies have found that as many as 40 percent of homeless 
youth identify as lesbian, gay, bisexual and transgender (LGBT).\3\
---------------------------------------------------------------------------
    \3\ Http://www.acf.hhs.gov/sites/default/files/fysb/
fysb_sop_summary_final.pdf.
     Http://fortytonone.org/wp-content/uploads/2012/06/LGBT-Homeless-
Youth-Survey-Final-Report-7-11-12.pdf.
---------------------------------------------------------------------------
    Other studies have shown a relatively high rate of homelessness 
among some young people who have ``aged out'' of foster care, ranging 
anywhere from 11 and 36 percent.\4\ These studies also demonstrate that 
these youth tend to be precariously housed or face housing instability 
once they age out, even if they do not end up on the streets or in 
shelters. One study in Detroit found as many as 33 percent of youth had 
lived in a doubled-up or couch-surfing situation since they aged 
out.\5\ It is important that we understand these patterns in order to 
develop meaningful solutions for the young adults who need them the 
most.
---------------------------------------------------------------------------
    \4\ Http://www.huduser.org/portal/publications/pdf/
HousingFosterCare_LiteratureReview_
0412_v2.pdf.
    \5\ Http://www.huduser.org/portal/publications/pdf/
HousingFosterCare_LiteratureReview_
0412_v2.pdf.
---------------------------------------------------------------------------
    While the RHY program at HHS does not issue a report specifically 
describing the annual number of youth experiencing homelessness, they 
do submit a biannual report to Congress with the number of youth served 
through RHY programs, and they have shared with HUD that in fiscal year 
2014 2,927 youth entered the Transitional Living Program (TLP), 31,755 
youth entered the Basic Center Program (BCP) and 4,786 youth were 
provided services to prevent entry into the BCP. Additionally, 4,842 
youth were turned away from TLP and 2,425 youth were turned away from 
BCP in fiscal year 2014. A major limitation to the data is that neither 
count is reliably unduplicated.
    The Department of Education's most recent data reported that more 
than 1.2 million students experienced homelessness over the course of 
the fiscal year 2012-fiscal year 2013 school year, including 75,940 
unaccompanied youth.\6\ This includes students who are living in 
doubled-up situations. While neither the point-in-time count data nor 
the annual data from HMIS include children and youth living in doubled-
up housing situations, the American Housing Survey does, and HUD uses 
this data to understand families living in doubled-up situations.
---------------------------------------------------------------------------
    \6\ Http://center.serve.org/nche/downloads/data-comp-1011-1213.pdf.
---------------------------------------------------------------------------
    No one data set tells the whole story of youth homelessness, the 
collective data that we do have tells us that far too many youth and 
young adults are living in dangerous, unsheltered circumstances-- and 
it is our priority to get every young person out of those dangerous 
circumstances. It also tells us that we must redouble our efforts to 
work with local child welfare systems to promote the long-term well-
being of these youth and young adults.
                     current capacity and programs
    HUD's Emergency Solutions Grants (ESG) and Continuum of Care (CoC) 
programs fund a wide variety of interventions that are used by local 
CoCs to serve youth at risk of or experiencing homelessness, including 
homelessness prevention, emergency shelter, transitional housing, rapid 
re-housing, or permanent supportive housing. While the Emergency 
Solutions Grants (ESG) program is formula-based funding that is 
allocated by state and local government entities, jurisdictions must 
compete for CoC Program funds. CoCs have discretion to prioritize 
funding for projects that meet local needs, within parameters set by 
HUD, in the national competition.
    In fiscal year 2014, HUD awarded $79 million to more than 500 
projects that primarily serve youth experiencing homelessness in the 
CoC Program. The majority of this funding was for transitional housing 
programs. Many more projects serve at least some youth. HUD awarded 
funding to over 3,700 projects that plan to serve some youth aged 18-
24. These projects will spend approximately $200 million to serve 
youth.
    HUD also provides housing assistance to a significant number of 
youth through its mainstream affordable housing programs. Currently, as 
reported to the Public and Indian Housing Information Center (PIC) 
nearly 60,000 of the households that HUD serves through its Housing 
Choice Voucher and Public Housing programs are headed by youth or young 
adults, representing over $700 million of funding annually. While these 
resources are not all targeted to homeless youth, they provide 
additional assistance to youth with affordable housing needs, and can 
prevent those youth from experiencing homelessness.
    HUD's spending on targeted programs for homeless youth has 
complemented the Runaway and Homeless Youth (RHY) programs funded at 
the Department of Health and Human Services (HHS). In fiscal year 2014 
HHS administered a total of $114.1 million to RHY programs. That 
included funding for the Street Outreach Program ($17.1 million to 109 
grantees), the Basic Center Program ($53.35 million to 299 grantees) 
and the Transitional Living Program ($43.65 million to 200 grantees). 
Together, these investments made up the Federal government's biggest 
targeted investments in providing housing for youth experiencing 
homelessness.
    There are three major challenges to the way the current set of 
targeted homelessness resources are spent on programs for youth 
experiencing homelessness.
  --First, there are significant gaps in the array of interventions for 
        youth experiencing homelessness. For example, there is a 
        shortage of crisis beds for youth across the country resulting 
        in a large number of youth being unsheltered on any given 
        night. At the same, it is important to recognize that if 
        Congress just provides for a wider age range or longer length 
        of stay without also providing additional resources, programs 
        would only be able to extend their services to some by denying 
        services to others.
  --Second, there is limited evidence on the cost effectiveness of 
        interventions targeted to homeless youth. We need to develop an 
        understanding about the full array of developmentally 
        appropriate interventions that will work for youth and which 
        strategies and program design elements are most cost-effective.
  --Third, the Federal Government and partner communities are only 
        beginning to have the knowledge needed to articulate a multi-
        stakeholder, systems-level approach that connects practices and 
        procedures among multiple service providers to improve a 
        targeted set of outcomes for homeless youth, and approaches the 
        problem as a whole community, rather than taking a program-by-
        program approach.
  improving the capacity of programs and systems working to end youth 
                              homelessness
    In order to ensure that communities are moving towards system-level 
approaches that are inclusive of all homeless populations, HUD has 
implemented and promoted policies, such as improving system-level 
performance, implementation of best practices such as Housing First, 
and the use of coordinated entry systems--the key to ensuring that the 
homelessness response system is as effective at serving all homeless 
populations as possible. Shifting to a systems/community-level crisis 
response system is never easy work--yet the process undoubtedly leads 
to a demand for better-performing projects and a shift toward 
interventions that make an impact. HUD is leading the way with these 
shifts, and I would like to outline some of our thinking and action as 
it relates to building a systems-level approach to preventing and 
ending youth homelessness.
    First, it is important to note that HUD recognizes that youth and 
young adults need interventions that are targeted to their 
developmental stage in life. An often-repeated criticism of HUD's work 
in ending homelessness among youth is that our programs have not 
historically focused on or effectively addressed the specific 
developmental needs of youth. This understanding is a core value for 
the Department and is reflected in the policies and programs HUD is 
working to implement.
    We understand that reconnection to family is an important pathway 
out of homelessness for some youth. Family support--sometimes in the 
form of financial support and/or housing, other times in the form of 
support to improve family functioning such as counseling--is often the 
factor that can be a young person's pathway out of homelessness. For 
the most part, the family reunification efforts of the Basic Center 
Program at HHS have been the primary intervention for family 
reunification. As noted before, we have also invested heavily in 
transitional housing for youth, mostly because it has been seen as the 
only developmentally appropriate intervention. But we need to expand 
the array of youth-appropriate options available.
    We are encouraged that many communities around the country are 
experimenting with other types of housing assistance for youth and 
young adults: prevention and rapid-rehousing, service-enriched 
affordable housing, and supportive housing--and doing so in a 
developmentally appropriate way. We need to test the impact of these 
interventions on the outcomes that matter for youth--education/
employment, well-being, permanent connections, as well as housing--and 
test their cost-effectiveness for youth. And as Ms. Lauper noted, we 
have partnered with the True Colors Fund to pilot an initiative to 
prevent homelessness for LGBTQ youth.
    HUD firmly believes that the principles of Housing First should 
apply to youth and young adult targeted programs and that programs such 
as rapid re-housing and supportive housing that have traditionally 
focused on adults could also be effective for youth if designed to 
address their needs. Such a Housing First philosophy for youth should 
provide access to housing with no preconditions, promote choice and 
self-determination, promote support and recovery that includes work to 
address risk factors and build on protective factors, provide adaptable 
and flexible individualized supportive services, and promote meaningful 
and deliberate participation in the community. Youth-specific Housing 
First programs should include services that navigate reunification with 
family where appropriate, establish positive and permanent connections 
with other adults, or incent education in addition to employment.
    Over the past few years, HUD, in partnership and consultation with 
Federal partners, has taken on several youth-specific initiatives. 
These efforts are helping us advance our knowledge about how many youth 
and young adults are experiencing homelessness, and improve the 
capacity of local jurisdictions to end youth homelessness.
  --As noted previously, for the first time in 2013, HUD asked 
        communities to report their point-in-time estimates in three 
        separate age categories: under 18, 18-24, and 25 and older, 
        allowing HUD to specifically report national data on young 
        adults ages 18-24.
  --In 2013, together with USICH, HHS, and the Department of Education, 
        HUD implemented Youth Count!, an interagency initiative to 
        develop promising strategies for counting unaccompanied 
        homeless youth, up to 24-years-old, through innovative 
        implementations of HUD's 2013 point-in-time count. The goal of 
        this initiative was to learn promising strategies for 
        conducting collaborative point-in-time counts of unaccompanied 
        homeless youth that engage CoCs, RHY providers, Local 
        Educational Agency (LEA) homeless liaisons, and other local 
        stakeholders; and to conduct credible point-in-time counts that 
        gather reliable data on unaccompanied homeless youth. HUD took 
        lessons learned from Youth Count! and translated them into 
        guidance for counting youth in the 2015 Point-in-Time Count 
        Methodology Guide for all CoCs.
  --In 2013, in partnership with HHS, HUD released new data standards 
        the Homelessness Management Information Systems (HMIS) that 
        included specific-elements for HHS' Runaway and Homeless Youth 
        (RHY) program. HHS and HUD have integrated systems so that data 
        collected by the RHY program can eventually be included in the 
        Annual Homeless Assessment Report.
  --In 2014, HUD began an initiative to prevent homelessness among 
        LGBTQ youth and young adults in two communities--Cincinnati and 
        Houston. The two communities receive targeted technical 
        assistance from HUD and from the True Colors Fund, as well 
        leveraged technical assistance from sister Federal agencies. 
        The two communities are working to develop and implement a 
        comprehensive community-wide plan to prevent homelessness among 
        LGBTQ youth.
  --In 2014, in response to stakeholder feedback and misinformation 
        about eligibility for our programs, HUD published a document 
        clarifying that youth and young adults sleeping in a place 
        where they are being abused or trafficked or fearful of abuse 
        should be able to access emergency shelter, and the 
        documentation required for them to do so should be 
        straightforward and place as little burden on youth as 
        possible. Such misinformation about which youth are eligible 
        for HUD's homelessness programs is dangerous and can lead to 
        eligible youth and young adults being turned away from life-
        saving programs. While the rules about who can receive housing 
        and services funded by HUD can sometimes seem tricky to 
        navigate, there are circumstances that should always be clear-- 
        primarily that no youth or family should ever have to sleep in 
        an unsheltered location or in a place where they are abused or 
        trafficked or fearful of abuse. People facing these 
        circumstances that have no other alternatives are able to 
        access, at a minimum, our emergency shelter services, but may 
        also be eligible for programs like transitional and permanent 
        housing.
  --In the fiscal year 2013-2014 Continuum of Care Program competition, 
        HUD included youth homelessness as one of the Department's 
        policy priorities, assigning points to questions about youth 
        homelessness, and collecting baseline information on what CoCs 
        are doing to end youth homelessness in their communities. HUD 
        accompanied this with youth- focused messaging highlighting the 
        importance of a youth-inclusive homelessness response system.
  --In March of 2015, HUD released a notice to recipients and 
        subrecipients receiving ESG, CoC or Housing Opportunities for 
        Persons with AIDS (HOPWA) funds that provides guidance 
        regarding how best to provide shelter to transgender persons--
        including transgender youth-- in a single-sex facility. The 
        notice also provides guidance on appropriate and inappropriate 
        inquiries related to a potential or current client's sex for 
        the purposes of placing transgender persons in temporary, 
        emergency shelters, or other facilities with shared sleeping 
        areas or bathrooms.
  --To further our understanding of the challenges associated with 
        preventing and ending homelessness among youth aging out of 
        foster care, in 2013 HHS invested $5 million a year to develop 
        model interventions for that unique population. This year, HHS 
        is investing another $3.5 million a year to 5 of these 
        communities to further refine and implement their models, and 
        begin evaluation of the projects. We hope that this data will 
        further our knowledge base and help us refine our plans for 
        preventing and ending youth homelessness, and HUD is a willing 
        and active partner in this work.
    In addition to these efforts, HUD is also working diligently to 
ramp up youth and young-adult efforts in the coming years, in 
coordination with our Federal partners.
  --HUD is working with the Department of Education on a series of 
        technical assistance products to help schools and CoCs 
        collaborate more effectively. These include guidance to CoCs 
        and LEAs about models of collaboration, and a HUD definition 
        and program eligibility crosswalk for local education and 
        homeless service stakeholders.
  --HUD is working on guidance to clarify documentation requirements in 
        HUD-funded homelessness programs for youth and young adults 
        experiencing homelessness. This clarification is intended to 
        ensure that documentation is not a barrier to any youth 
        experiencing homelessness accessing HUD's programs.
  --HUD is working with HHS to continue to build the relationship 
        between RHY program providers and CoCs, by releasing guidance 
        to CoCs about working to invite and include RHY program 
        providers into HMIS as well as governing bodies and committees, 
        to further develop the community-wide planning and systems-
        level thinking that is needed for coordinated entry and a 
        community-wide approach to ending youth homelessness.
  --In fiscal year 2015, we plan to incentivize increased collaboration 
        between youth homelessness stakeholders and CoC planning 
        bodies. It is HUD's intent to send a strong message to CoCs, 
        particularly those that have historically not been inclusive of 
        youth-serving programs, that this is a top priority for HUD. 
        CoCs that have a plan in place to meet the goal of ending youth 
        homelessness by 2020 will be more competitive in the fiscal 
        year 2015 competition.
  --Thanks to a demonstration authority granted by this committee in 
        2015 appropriations, HUD will be releasing guidance to public 
        housing authorities describing efforts to align the Family 
        Unification Program (FUP) with the Family Self-Sufficiency 
        Program to achieve better outcomes for homeless youth who have 
        aged out of foster care.
  --In addition to the $2.48 billion requested for Homeless Assistance 
        Grants in the President's fiscal year 2016 budget, HUD 
        requested $177.5 million for special purpose vouchers for 
        people experiencing homelessness, and a $20 million request for 
        additional FUP vouchers for families and youth. HUD also 
        proposed in this budget that the FUP vouchers be available to 
        eligible youth aging out of foster care for a period of up to 5 
        years, up from the current period of 18 months.
  --The President's fiscal year 2016 budget also requests funding to 
        implement research on youth homelessness through our Office of 
        Policy Development and Research.
  --In the next Annual Homeless Assessment Report (AHAR), HUD plans to 
        include additional measures of homelessness and housing 
        instability, utilizing data from the Department of Education 
        and Census Bureau to better describe doubled-up households.
  --Following this hearing, the White House will be hosting a policy 
        briefing for stakeholders from all over the country who are 
        working to end youth homelessness.
    We should also note that HHS has several requests in the 
President's fiscal year 2016 budget that indicate their commitment to 
addressing the challenges that youth experiencing homelessness face.
  --One proposal would allow child welfare agencies to use Chafee 
        Foster Care Independence Program funds to serve young people 
        formerly in foster care through the age of 23 if the provides 
        foster care to youth up to age 21. To demonstrate HHS' 
        continued commitment to permanent homes for all youth, the 
        proposal also includes a provision to further reduce the number 
        of youth who age out of foster care by eliminating another 
        planned permanent living arrangement as a permanency goal.
  --The reauthorization proposal for the Runaway and Homeless Youth Act 
        increases funding to support the RHY program and provide 
        funding to perform a periodic estimate of the incidence and 
        prevalence of youth homelessness. This request includes an 
        increase of $5 million to provide additional program services 
        in the Transitional Living Programs (TLP) and to expand 
        transitional services for LGBTQ youth.
                   building momentum toward the goal
    HUD agrees that more is needed to address the needs of youth and 
families experiencing homelessness--that will take hard work at the 
local and national levels in conjunction with targeted investments from 
Congress. I hope that this testimony has illustrated for the Committee 
that the team at HUD is committed to doing the hard work. We would like 
to work together with Congress to find ways to expand available 
resources and capacity to serve more families and youth, while 
continuing to prioritize assistance to those who have nowhere else to 
turn. USICH partner agencies have committed to more fully engaging 
mainstream resources too.
    Madame Chairman and members of the subcommittee, I hope this 
discussion has been helpful to your understanding of HUD's vision for 
its contribution to the work with HHS, USICH, and other Federal 
partners on ending homelessness among youth and young adults. With your 
support, HUD looks forward to continuing these efforts and working to 
reach our goal of ending youth homelessness once and for all. Thank you 
for this opportunity.

    Senator Collins. Thank you very much for your testimony. 
Ms. Shore.

                         Sasha Bruce Youthwork

STATEMENT OF DEBORAH SHORE, CHAIRMAN, NATIONAL NETWORK 
            FOR YOUTH, AND EXECUTIVE DIRECTOR AND 
            FOUNDER
    Ms. Shore. Chairman Collins, Ranking Member Reed, and other 
members of the subcommittee, thank you for the opportunity to 
testify today regarding HUD's efforts to meet the 
administration's goal of ending youth homelessness by 2020. I 
appreciate the chance to bring my 40-plus years' experience as 
a service provider to runaway and homeless youth in the 
District of Columbia. I am the founder and executive director 
of Sasha Bruce Youthwork. I am also board chair of the National 
Network for Youth which provides public education on public 
policy, as Senator Collins mentioned.
    Although I am a perpetual optimist and many things are 
good, I think that we need to be very concerned that the 
progress in ending youth homelessness has been so slow. My 
evidence for this stems from the unsheltered youth data, from 
the eligibility issues which continue to keep youth from 
accessing HUD services, and that the system does not yet 
reflect the priorities that are important for youth based on 
youth development needs as we know them.
    The HUD Annual Homeless Assessment Report (AHAR) in 2013 
and 2014 on the unaccompanied homeless youth shows that in both 
years, less than 1 percent of beds counted in the housing 
inventory count were for child-headed households. And in 2014, 
there were over 22,000 unaccompanied homeless youth in 
unsheltered locations on that one night. These facts did not 
change appreciably from 1 year to the next. I strongly support 
the incidence study that we have been asking for as it will 
deepen our knowledge and provide a better estimate of the scope 
of need. But I submit that we know enough right now that we are 
under invested in housing and services for homeless youth.
    I want to strongly underscore that to not house and support 
youth when they are young will certainly contribute to chronic 
homelessness and victimization, such as trading sex for a place 
to stay, added use of jails and hospitals, and early death, 
real consequences, which research and our experience tells us 
happens every day.
    I am very pleased that over the past 5 years there have 
been many productive conversations, and there is real interest 
at HUD and or other Federal partners in how to build a youth 
development trauma-informed continuum for homeless youth that 
recognizes the real differences between youth and adults. But 
unfortunately change has not happened for our young people, and 
the realities on the ground are that there are eligibility 
problems and barriers with youth accessing HUD programs, or 
they do not feel safe in the adult housing that is available.
    When preparing for this hearing, I asked my colleagues to 
give me a sense of what the state of homeless services were in 
their area of the country. I received a multitude of reports 
from all over the country of youth attempting to access 
services and being unable to get the proper documentation, 
being unwilling to disclose the abuse that they were facing, or 
being told that they needed to enter an adult shelter. It is 
hard for me to reconcile it with the fact that there are means 
for youth to access the youth system and the guidance has been 
given, but the reality is that youth are not getting through 
the gate, and in large numbers, and in all parts of the 
country.
    Most youth couch surf as a way to manage their instability. 
In this situation, youth rarely know how long they can stay in 
any given location, and they are afraid of the consequences of 
even asking for a statement, or the person with whom they are 
staying is afraid of the public knowledge or involvement in the 
official system. For instance, public housing residents will 
not sign a letter because they will lose their housing if they 
acknowledge they are allowing someone to stay who is not on 
their lease. Couch surfing is dangerous for young people, and 
they have no legal rights.
    The difficulty with the access is also evidenced by the 
persistently high numbers of youth that are unsheltered. We 
need a continuum that homeless youth can more easily access 
with multiple entry points. HUD, HHS, and the Department of 
Education should accelerate their work together to assure there 
is solid collaboration between the systems and that youth 
development principles are embedded. Youth need to have 
available programs that can benefit them most, such as 
transition housing and easy access to safe shelter with 
services.
    This is an appropriations hearing, and so I would be remiss 
if I did not ask for a considerable investment in a youth 
homelessness solution. I feel that I can say with confidence 
that with the Federal leadership we have and our 40 years of 
program experience, such an investment will work. And it is the 
only realistic path forward for ending youth homelessness as we 
know it by 2020. Thank you.
    [The statement follows:]
                  Prepared Statement of Deborah Shore
    Chairman Collins, Ranking Member Reed and other Members of the 
Subcommittee, thank you for this opportunity to testify regarding HUD's 
efforts to meet the Administration's goal of ending youth homelessness 
by 2020.
    I appreciate the chance to bring my 40 plus years experience as a 
service provider to runaway and homeless youth in the District of 
Columbia. I am Founder and Executive Director of Sasha Bruce Youthwork, 
an agency which provides Street Outreach, Emergency Shelter, 
Transitional and Long Term Housing to about 60 youth and young families 
ages 12--24 at one time and over 300 youth per year. We offer the only 
minor shelter for homeless youth in Washington, DC. Our programs are 
successful for the youth we are able to serve: 75 percent of the youth 
who leave our emergency shelter return home with strengthened family 
relationships, and 88 percent of youth who leave our transition and 
permanent supportive housing programs become established either in 
school or employment. I am also the Board Chair of the National Network 
for Youth. The National Network provides public education on Federal 
policy effecting runaway and homeless youth and the programs that serve 
them.
    I am a perpetual optimist but as I reflect on the distance between 
our current capacity and the important deadline for ending youth 
homelessness over the next 5 years, I think we need to be VERY 
concerned that our progress has been so slow.
    The three main topics that I will address are:
    1.  The gaps between the needs of homeless youth and the programs 
        to serve them which belie a lack of directed resources;
    2.  The eligibility barriers to HUD homeless assistance that 
        prevent youth from accessing currently funded programs; and
    3.  The need for a youth-oriented Continuum of Care that recognizes 
        that youth are different than adults, in both their pathways to 
        homelessness and what they need to exit homelessness and 
        transition to adulthood.
    An important place to begin is what we know about the disparity 
between youth in need and services available. We know that youth are 
hard to count and that they often will go to lengths to avoid detection 
because of their fear of public system involvement and/or that their 
embarrassment of the circumstances they are in. Also, youth who are 
homeless have overwhelmingly experienced significant trauma and are not 
trusting of the adult world. So we know we have underestimates but the 
numbers we do have create a stark picture and should be a call to 
action!
    The HUD AHAR report (Annual Homeless Assessment Report) in 2013 and 
2014 on the unaccompanied homeless youth population shines light on the 
distance we need to go. In both years, less than 1 percent of beds 
counted in the Housing Inventory Count were for child-headed 
households. In 2014, there were over 22,000 unaccompanied homeless 
youth in unsheltered locations. Data from the HUD point-in-time count, 
the U.S. Department of Education, and U.S. Department of Health and 
Human Services shows that homeless youth are unsheltered at higher 
rates than other sub-populations, that the number of unaccompanied 
homeless youth is rising, and that youth are turned away from programs 
at high rates due to the lack of an available bed.
    Clearly, we need more capacity. Please know how much I support the 
Incidence Study that we have been asking for which will deepen our 
knowledge and provide a better estimate of the scope of need, but I 
submit that we know enough to know that we are seriously underinvested 
in housing and services for homeless youth. It is critical that we 
increase access for youth to come into safe spaces because to NOT do so 
contributes directly to chronic homelessness, victimization such as 
trading sex for a place to stay, added use of jails and hospitals and/
or early death. Real consequences which research and our experience 
tells us happens every day in America when young people remain homeless 
and unsupported.
    Over the past 5 years there have been many productive conversations 
with HUD and other Federal partners about how to build a youth 
development, trauma informed continuum for homeless youth, which is 
different than the continuum for adults. While there is agreement that 
youth need more support services and life skills supports, and though I 
believe there is a real interest in seeing this come to pass, the 
reality on the ground for our young people is that there is not enough 
housing when they need it or they do not feel safe in the adult housing 
that is available.
    While more resources are clearly needed, homeless youth face 
barriers in accessing current HUD resources. There are consistent 
reports of barriers that exist for homeless youth and young adults due 
to the HUD priorities and who is eligible for HUD homelessness 
assistance. This is because there is a mismatch between the priorities 
at HUD and their ways of defining homelessness and the realities for 
our youth. The reality for homeless youth is that most couch surf as a 
way to manage their instability. As such, they have trouble meeting the 
requirements for the documentation of their homelessness. Let me share 
a few examples that were sent from youth providers who are part of the 
National Network for Youth.
    Young people like:
  --Elaine, from Richmond, whose mother was addicted to drugs and whose 
        father abandoned her. Elaine was forced to stay with cousins 
        who did not want her, who did not feed her, and who verbally 
        abused her. When her cousin told her to get out, Elaine sought 
        help from the Department of Social Services, but was told she 
        either needed to be on the streets, or obtain a letter from her 
        abusive cousins saying she could not stay there. She was just 
        17 years old.
  --Consider Lonnie, from Tulsa, who has significant mental health 
        challenges, including mental retardation. Lonnie is living with 
        two older men who consistently abuse him. Lonnie does not meet 
        HUD's definition of homelessness because he can stay at his 
        current residence for more than 14 days. Lonnie does not feel 
        safe at home, or in an adult shelter.
  --Another example is K.B., age 22, from Seattle, who is pregnant, AND 
        has a 1 year-old son, AND has been homeless for 2 years, couch-
        surfing from place to place. When she called for help, she was 
        told they could not provide assist because she was not staying 
        in a tent, car, or shelter.
    The stories are legion and nationwide--young people who are neither 
safe, nor stable but are not eligible for the HUD homeless assistance 
without documentation which is often too high a bar. Youth rarely know 
how long they can stay at any given location when couch surfing; even 
if they cannot stay for 14 days, they often cannot obtain a statement, 
either because they are afraid to ask for fear this will trigger them 
to be asked to leave immediately, and/or because a person or family 
member does not want to become involved with any official system. 
Public housing residents will not sign a letter because they believe 
they will lose their place if they acknowledge allowing someone to stay 
there who is not on their lease. In other cases, the family member or 
friend simply doesn't want what might be considered responsibility. As 
a couch-surfer, with no name on a lease or any formal documentation, 
youth have no legal rights. While they may not have a letter saying it, 
they could be kicked out at any time, their belongings stolen, and be 
endangered including by being sexually exploited.
    These realities and the urgent need to make strides in ending youth 
homelessness lead to the need for a youth oriented Continuum of Care 
which has an array of services adapted to be youth development and 
trauma informed. The Departments of HUD and HHS should collaborate 
together to create a continuum with crisis residential housing and 
transitional housing available widely to our young people in crisis. 
Transitional housing is the most appropriate response for our youth who 
become homeless and have not had much opportunity to attain life skills 
or to live independently but has been de-prioritized. A Youth Continuum 
would encourage the possible movement of a youth from one group model 
of transitional living into a scattered site transitional living model 
with more autonomy, a practice that now means a poor outcome within 
HMIS. Importantly, it would not place the priority of youth against the 
priority of chronically homeless adults and eliminate all barriers to 
serving homeless and unstably housed youth and young adults.
    In conclusion, I am here before you today in the hopes that:
  --The urgent needs of homeless youth can be prioritized with 
        increased resources to respond appropriately;
  --That eligibility barriers be removed to allow homeless youth access 
        what they need when they need it; and
  --Together, we work to create a continuum for youth that is flexible 
        and appropriate so that young people are not only housed, but 
        able to gain the life skills needed to eventually exit public 
        systems of care and enter employment or higher education.
    It is my hope that the thrust of this hearing can be to create the 
momentum towards a much larger investment into the life-giving work of 
appropriately serving homeless youth. We need to see these young people 
move from their dire circumstances towards becoming contributors in our 
world. I know this is possible as I have seen it time and again.
    I dedicate my testimony to Raynice, a young mother who became 
homeless at age 19 when her mother and grandmother passed away within 
two weeks of one another. With the help of one of our programs she is 
now finishing college and her daughter is thriving. And to the millions 
of youth like her who need our help today in order to not to become 
tomorrow's chronically homeless adults.
    Thank you.
    Below are real examples and statements from homeless youth 
providers and youth from across the country who struggle with HUD's 
eligibility requirements and administrative decisions which do not 
allow youth experiencing homelessness to access what they need:
               youth services of tulsa (yst) in tulsa, ok
Main Issues With YST Youth Accessing HUD Housing:
  --YST Youth do not meet HUD Chronic Definition (homeless for 1 year; 
        or 4 homelessness accounts in less than 3 years)
    --Kicked out at age 18, a youth would have to be street homeless 
            until they turn 19 in order to meet the chronic definition.
    --Many youth are very afraid of adult shelters, and will stay with 
            friends (leaving them ineligible to meet the definition of 
            ``homeless''.
    --Youth are requested to stay at adult shelters in order to meet 
            necessary requirements. This is a dangerous and re-
            traumatizing request to simply legally access HUD housing.
  --Youth who are pregnant are not eligible for ``single occupancy'' 
        supportive housing
  --Youth are not considered homeless even if they are living in the 
        following circumstances:
    --Abandoned homes that have either water or electric.
    --Apartments or houses (not on the lease) with large groups of 
            people squatting.
    --Couch Surfing or staying in day-to-day motels.
    --Coming out of transitional living program housing.
Examples Where Youth People Were Denied Housing Due to HUD 
        Requirements:
    Jeremiah S.--Jeremiah was living with his mother before becoming 
homeless at 18. Jeremiah and staff were proactive in that they tried to 
connect him with supportive housing (Jeremiah has Asperger's and other 
mental health diagnoses) before his 18th birthday; knowing that his 
mother planned to kick him out of her home the day he turned 18. 
Jeremiah was denied this opportunity because he was not yet homeless. 
Jeremiah was forced to go to an adult homeless shelter, which 
intensified his mental health challenges.
    It was only then that Jeremiah was able to access safe, supportive 
housing. With that, Jeremiah did not meet HUD Chronic homelessness; so 
he is unable to access specific supportive housing services in that 
regard.
    Lonnie L.--Lonnie is currently living in a home with older 
``friends''. Lonnie has significant mental health challenges; as well 
as some Mental Retardation. Lonnie is a very vulnerable young man. He 
was not qualified for independent/supportive housing due to not meeting 
the ``homeless'' definition. Lonnie is in a home with 2 older men who 
physically and mentally abuse him. The men are forceful and demanding 
when it comes to finances, etc. Lonnie does not feel safe in his home; 
nor does he feel safe in an adult shelter. The only option for Lonnie 
to meet qualifications for HUD housing is to start sleeping outside. 
With that, Lonnie does not meet HUD Chronic homelessness; so he is 
unable to access specific supportive housing services in that regard.
    Spencer M.--Spencer became homeless when he was dropped off in 
Tulsa, OK after hitch hiking from Missouri. Spencer has serious mental 
health challenges, and for a time was extremely suicidal. Spencer slept 
at the adult shelters for a few nights, but eventually began sleeping 
on Youth Services property (outside) because that's the only place he 
felt safe. Because he had not been homeless for over a year; Spencer 
did not meet HUD Chronic homelessness. This put his opportunity for 
safe, supportive housing at a high risk. Spencer would be the safest in 
a more supportive housing environment; but again, he does not meet 
Chronic standards, so he can not access specific supportive housing in 
that regard.
    Zach B.--Zach became homeless in August 2013 after turning 18 years 
old and his mother kicking him out. Zach spent time at various adult 
shelters before meeting someone that allowed him to sleep on the floor 
of his apartment from time to time. Because Zach was not on the street 
or at a shelter consistently for 1 year, he would not qualify for HUD 
Supportive housing. Zach receives SSI and has been unsuccessful in 
finding safe, stable, supportive housing.
    Kerie S.--Kerie had a 1 year old baby, and another one on the way 
when she found herself back on the street. After several attempts to 
access HUD Supportive housing; Kerie was turned away due to having a 
child, and being pregnant. Kerie was told the HUD funds are for single 
occupancy ONLY. Because she had a child, and was pregnant, she was not 
eligible for housing. Kerie spent weeks at an Emergency Shelter with 
her child while on a Section 8 voucher waitlist.
    Victor M.--Victor was in and out of group homes, and foster homes, 
until turning 18 and becoming street homeless in Tulsa, OK. Victor was 
unable to access HUD supportive housing because he had not been 
homeless for over a year; in turn, not meeting the HUD Chronic 
homelessness definition. When he was finally able to access housing; he 
communicated that he needed a roommate to be more successful. HUD 
requirements did not allow Victor to have a roommate; and he since 
failed several different housing opportunities. Victor is now in jail.
    Crystal N.--Crystal was sleeping in her car for months before 
accessing HUD long-term supportive housing. Crystal has severe mental 
health issues, as well as several suicide attempts. Crystal got into a 
relationship and became pregnant. At that time, she could no longer 
access her supportive housing; because it would no longer be single 
occupancy housing.
    Kyle K.--Kyle has been on and off the streets since the age of 14. 
Kyle was attempting to access supportive housing through HUD. Kyle 
stated that at one time he stayed in an abandoned motorhome that had 
running water for about 2 months. HUD guidelines stated that because 
there was water running to the RV, it was considered a habitual living 
space. Kyle was no longer eligible for housing under HUD Chronic 
definition.
    Gabe A.--Gabe was stably housed before losing his employment and 
income. At that time, he began couch surfing with friends that would 
allow him to stay. Because of his couch surfing, and not spending time 
on the street or the adult shelters; he did not meet HUD homeless 
guidelines and was unable to access supportive housing.
    JoAnna M.--JoAnna was in and out of housing for several years. At 
the time, JoAnna was couch surfing with a ``street family'', 6 adults 
in a 1 bedroom apartment. JoAnna then became pregnant. JoAnna was 
unable to access supportive housing because she did not meet the HUD 
homeless guidelines (because of couch surfing), and because she was 
pregnant she was not considered a single occupancy resident.
                         youthcare, seattle, wa
            Youth Housing Connect--King County Coordinated Entry System 
                    for Homeless Young Adults
    Nearly every young adult (ages 18-24) coming into YouthCare's 
housing programs through Youth Housing Connection (King County's 
Coordinated Entry system) are couch surfing or living with a family 
member that cannot support them. When they have to ask them for a 
letter affirming that they cannot stay beyond two weeks, this can 
create real trauma within the family unit. No young person who is 
trying to build a relationship with their family wants to then have to 
ask for a letter saying that family member won't let them stay beyond 
two weeks. Additionally, after signing an official letter, family 
members or friends may be afraid they will get in trouble for housing 
the youth longer than 2 weeks and kick them out pre-emptively.
    In other cases, the family member or friend simply won't sign the 
letter, even though the young person could be kicked out at any moment. 
As a couch-surfer, with no name on a lease or any formal document, 
youth have no legal rights. While they may not have a letter saying it, 
they could be kicked out at any time, their belongings could be stolen, 
and they could be staying in an incredibly unsafe location. 
Additionally, they do not know how they are ``supposed'' to act in the 
YHC assessment--they see it as an interview for housing where they 
should be putting their best foot forward and showing how proactive 
they are being. What they don't know is that once they say they 
``couch-surfing'' they are effectively preventing themselves from being 
placed into housing.
  --A young woman lost her housing after her mother received an 
        eviction notice and disappeared. She began sleeping in her 
        truck, and arrived at YouthCare's James W. Ray Orion Center to 
        enroll in case management. As part of that process, her case 
        manager had her complete a YHC assessment. While waiting, her 
        case manager helped her make a plan so that she would not have 
        to sleep outside, which was unsafe, and she began couch-
        surfing. After 2 months in the waiting pool, she was accepted 
        into one of YouthCare's job training programs and her case 
        manager encouraged her to update her YHC information with this 
        great news. During the update, she let the YHC assessor know 
        she was staying on a couch and could stay there while she 
        looked for other options. She was removed from the YHC waiting 
        pool and told that she would need to complete an assessment 
        again when she was sleeping outside or in a shelter again, or 
        could provide third party documentation that she would be 
        homeless within the next two weeks.
  --A case manager was working with a young woman who was couch-surfing 
        in an extremely unsafe location, where she did not know the 
        person she was staying with well. She went to a Youth Housing 
        Connect assessment, and did not know that she needed to say ``I 
        will be kicked out in 14 days.'' She was told she didn't 
        qualify for YHC, and returned to the unsafe location, and was 
        sexually assaulted later that week.
  --A case manager was working with a young woman whom he had 
        encouraged to set up a YHC assessment--he wasn't able to meet 
        with her before her assessment to talk about what to expect, 
        and she went into the assessment. She emerged crying because 
        the assessor told her she didn't qualify for housing since she 
        was couch-surfing. She then dropped out of case management and 
        he has not seen her again.
  --The mother of a 19-year-old woman called looking for help. Her 
        daughter was ``in the life'' (i.e. being sexually exploited) in 
        an area known for prostitution. The daughter was arrested, and 
        once released, she went to her mother's house. She has never 
        technically slept outside or in a shelter (because while she 
        was being sexually exploited she stayed in motels and/or with 
        ``boyfriends''). She has been staying with her mother for 1 
        week; her mother cannot provide long-term housing as she is in 
        section 8 housing and is not permitted to have another 
        resident. The young woman will be having a YHC assessment this 
        week, and case managers are concerned that since she has never 
        slept outside or in a shelter she will be turned down.
            Family Housing Connect--King County Coordinated Entry 
                    System for Homeless Families
    As YouthCare, our clients interact with the family system in two 
ways. Either they are homeless because their family is, and they are 
seeking housing together with their family, or they are pregnant/
parenting and seeking family housing for themselves and their children. 
Family shelters are nearly impossible to get into, and almost 
universally do not accept men or boys over age 15, meaning families 
must sometimes split up to access these coveted spots. To receive an 
assessment through FHC, you must be sleeping outside, in a car, or in a 
shelter. This forces the most vulnerable youth--young women who are 
pregnant or parenting--to sleep outside to qualify for housing.
  --Open Doors [a step-down rental subsidy program at YouthCare] 
        recently had a client who is still in the age range of youth 
        programs, but gave birth to her first child this fall; 
        therefore, she is now in the Family System. She is in her own 
        apartment, but not in a safe space for her and her child. She 
        also received an eviction notice. Upon calling 2-1-1 for 
        referrals [this is the local coordinated entry point for Family 
        Housing Connect], she was told that she must sleep in a shelter 
        or a space not meant for habitation in order to qualify for any 
        referrals or services. This young woman has a 4-month-old and 
        was told that she must sleep in her car or outside in order to 
        find better housing.
  --In our under-18 transitional housing program, we have a minor 
        client (17 years old) who is pregnant. Her family is also 
        homeless, and living in a formal homeless encampment in 
        Seattle. The client is on the waiting list for family housing 
        through King County's Coordinated Entry system--Family Housing 
        Connect. She must qualify as homeless in order to get placed 
        into housing for her and her baby upon her 18 birthday. Because 
        this young woman is in our TLP, she is not considered homeless. 
        She has asked that she be on pass from our program so that she 
        can spend a week living with her family in a tent in a homeless 
        encampment (again, she is pregnant!) and be able to answer the 
        FHC assessor honestly, during the interview, when asked where 
        she has slept for the last week.
  --Our WIA Supervisor has worked with a client for many years. She had 
        exited case management and was stably housed with her husband 
        on a farm where they were able to live in exchange for his 
        work, and it was a wonderful set up. He was fired after a long 
        stretch and they returned to homelessness, couch-surfing 
        between friends and other locations. They have a 1 year-old son 
        and she is currently pregnant; when she called Family Housing 
        Connection, they told her ``that they only help people that are 
        living in a tent, car, or shelter.'' She doesn't want to go 
        into a shelter because her husband will not be allowed to stay 
        with them. They are currently couchsurfing with various 
        friends, but are not able to stay long-term. She has been 
        extremely proactive about seeking employment and looking for 
        educational opportunities that will boost her employability, 
        but stable housing remains a barrier to all of these goals.
  --A case manager worked with a 17-year-old girl who has a three-
        month-old baby. She is living with her mother, who is unstable 
        and a domestic violence aggressor. After an incident, a judge 
        issued a 6-month no contact order against the mother, but the 
        daughter and her child don't have anywhere else to live. Family 
        Housing Connect will not conduct an assessment because she 
        lives with her mother, even though she has a no-contact order, 
        and her mother could be arrested simply for living in the same 
        house.
  --A case manager is working with a 19-year-old young woman with an 
        infant. She moved in with her boyfriend's mother to escape 
        violence from her boyfriend. The home was not safe for her as 
        the boyfriend would come and go regularly and the mom did not 
        honor the young woman's wishes that contact with the infant be 
        supervised. When she called 2-1-1 for a family housing 
        connection assessment, they told her she must be ``literally on 
        the streets'' to get an assessment.
  --Another case manager worked with a family that lives in a tent in a 
        wooded area in South Seattle. They have 7 children between 3 
        family units, including two YouthCare clients ages 15 and 17. 
        Previously, they were staying in a partially finished house, 
        which CPS deemed unfit for human habitation and opened 
        investigations against the parents. Family Housing Connection 
        deemed it a livable structure and would not provide a housing 
        assessment for them.
  --A 21-year-old youth in our rental assistance program became 
        pregnant and had a child. She lost her job and then lost her 
        apartment. She was told she needed to spend a night at a 
        shelter in order to receive an FHC assessment.
Other
    At our drop-in center, staff report frequently getting phone calls 
or meeting formerly homeless youth who have lost their job or had their 
paid internship end, and they want help getting another job. They do 
not yet have an eviction notice, and they do not want to inform their 
landlord that they no longer are employed because that will potentially 
cause them to be preemptively evicted. They do not qualify for case 
management or paid employment training programs with us because they 
are not homeless under the HUD definition.
                 covenant house new york, new york, ny
    The very system designed to be a ``Continuum of Care'' toward 
permanency and stability, in actuality cannibalizes itself. Agencies 
such as Covenant House that work exclusively with homeless youth and 
absolutely need every aspect of the continuum: Emergency Shelter, 
Transitional and Permanent cannot seamlessly access the HUD system to 
attain the goal of permanent housing. As a McKinney Vento Transitional 
living program provider and a Continuum of Care Leasing Program 
provider, Covenant House residents coming from our HUD funded 
transitional living program are ineligible for the leasing program. 
This is because in order to qualify for the Continuum of Care permanent 
housing Leasing program you must be documented as Chronically Homeless. 
In order to qualify as Chronically homeless you have to be demonstrate 
that you have been homeless for an entire year or demonstrate four 
bouts of homelessness within 3 years. HUD does not view residents 
living in a Transitional Living Shelter funded by HUD to be homeless 
therefore residents coming from our Rights of Passage Transitional 
Living program are ineligible for our very own Leasing program funded 
by the HUD Continuum of Care.
    What makes this even more exacerbating is that residents coming 
directly from our Emergency Shelter or demonstrate the four bouts in 3 
years are not adequately prepared to live in their own apartment even 
with the subsidy that the CoC Leasing Program provides.
    HUD needs to seriously re-examine their Chronically Homeless 
criteria with respect to youth and understand that most youth or young 
adult oriented transitional living programs are designed to assist 
residents in preparing for independence; however, 95 percent of 
residents do not have the financial means to live independently in a 
City like New York. They need some sort of subsidy program or else they 
become vulnerable to renter the homeless system, many times now as 
adults. So in the meantime, residents in transitional living program 
are essentially homeless as they are limited in their housing options.
    Thanks for the opportunity to offer our perspective on the subject, 
please reach out to me if you need further questions of clarity.
                  alternative house, dunn lorring, va
    Alternative House is a nonprofit organization that serves at-risk, 
runaway and homeless youth in Northern Virginia. Last year we worked 
with more than 2,000 young people. We provided safe shelter to 200 
runaway or homeless youth between the ages of 13 and 24. Homeless youth 
are not like homeless adults. They often are homeless because they 
believe the street is a safer option than their family home. They 
``couch surf'' going from friend to friend trying to find a safe place 
to stay. Too often they end up trading sex for food and shelter. The 
current U.S. Department of Housing and Urban Development (HUD's) 
definition of homelessness excludes these young people.
    One of Alternative House's programs, the Homeless Youth Initiative, 
provides rental assistance, case management and educational and 
occupational supports to homeless unaccompanied high school students. 
Many of these students do not fit HUD's rigid definition but clearly 
fit the true meaning of being homeless. ``John's'' parents lost their 
jobs during the recession and their marriage fell apart. With their 
home in foreclosure they left the area leaving John behind trying to 
finish high school. He bounced from friend to friend with his grades 
plummeting until a school social worker referred him to our Homeless 
Youth Initiative. We were able to help John maintain stable housing and 
find part-time work, which allowed him to remain in school and graduate 
on time. He has since gone on to community college and full-time 
employment. John did not ``technically'' meet the HUD definition of 
homelessness but he met ours.
                center for youth services, rochester, ny
HUD's Eligibility Requirements Excludes Homeless Youth and Families:
    It is a vicious circle--because HUD does not count youth who are 
hopping from unreliable relative to potentially unsafe acquaintance 
each night (instead of risking sleeping out on the streets), they 
aren't counted as homeless so shelter beds are not allocated. And since 
there are not enough shelter beds for youth and young adults they 
continue to have to rely on hopping around in order to survive.
    This also means the current definition for HUD of homeless youth 
impacts the number of transitional housing beds available. A core 
component of the continuum of services required to address youth 
homelessness is youth-centered transitional living/housing programs. 
Due to the limited and shrinking number of these types of units, young 
people seeking safety and stability who are even able to get into a 
shelter that provides youth-appropriate services, often cannot stay 
long enough to wait for a space in a youth-appropriate longer-term 
transitional independent living program to become available. It can 
take months for a space to open up. This leaves young people seeking 
housing relying on unsafe and uncaring adults while waiting to access 
services..
HUD has not Been Adequately or Proportionately Serving Youth:
  --Outcomes: HUD's outcome measurements are not reflective of the 
        measurements of success when working with homeless youth and 
        young adults--especially parenting teens. Academic achievement, 
        attainment of safe, permanent connections and independent 
        living skills gained are more applicable and useful outcomes to 
        be measured.
  --Definition of Permanent Housing at Discharge: HUD's options for 
        determining Permanent Housing as an outcome at discharge are 
        not realistic or appropriate for youth and young adults. 
        Discharge to military, college campus and even another longer-
        term adult- focused transitional housing program should be 
        included as permanent, stable housing outcomes for youth and 
        young adults.
  --Rapid Rehousing: The definitions of permanent housing impacts 
        services such as Rapid Rehousing for Transition Age Youth (TAY) 
        as RR programs are seen as successful based on adult-oriented 
        permanent housing. This results in RR programs not serving TAY 
        as they are seen as ``unsuccessful'' and too ``high need'' for 
        RR services and supports.
  --Permanent Housing: The average age of young people who become 
        independent in the best of circumstances in the U.S. is 26. 
        Hundreds of thousands of young adults move dorms/apartments/
        shared housing each year as they progress through college and 
        early careers. To expect young people 16--24 with the kinds of 
        traumatic experiences many homeless bring to be able to 
        maintain a lease and remain stable is unrealistic and sets 
        these youth up for failure and evictions on their records. 
        Also, many TAY can't even legally sign a lease, while others 
        have little or negative rental histories making them 
        undesirable to landlords. The definition of Permanent Housing 
        for TAY needs to be expanded to include more transitional, 
        risk-tolerant options.
  --Coordinated Access: Assessing and diversion services look very 
        different for minors and other TAY. CoCs are majority adult-
        services and are crafting Coordinated Access to fit their 
        models. Because homeless TAY have not been counted many CoCs do 
        not have many youth and young adult providers at the table (if 
        they have any at all in their community) to participate in the 
        creation of a specific, unique Coordinated Access for homeless 
        TAY.
              avenues for homeless youth, minneapolis, mn
    Avenues for Homeless Youth operates a 21 bed shelter and 
transitional housing program in Minneapolis, Minnesota and three 
community-based host home programs. We are about to open a 12 bed 
shelter and transitional housing program in the northwest suburbs of 
the Twin Cities, which is being developed in partnership with the City 
of Brooklyn Park in response to the rise in youth homelessness and sex 
trafficking in the suburbs.
    There are many problems with HUD's current definition of 
homelessness, especially for youth and young adults. For example:
  --HUD's definition of homelessness excludes many youth from HUD-
        funded housing programs and from homelessness counts. For 
        example, it does not include youth who are unstably couch-
        hopping from house-to-house. This is the majority of homeless 
        youth. While they may have a place to sleep at night, they are 
        not stable and they are not necessarily safe. And they are not 
        getting the supportive services they need to become stable, 
        stay in school and plan for their futures.
  --There is a terrible shortage of youth-specific shelter beds, both 
        in Minnesota and across the country. This means youth need to 
        spend time in adult shelters to qualify for HUD-supported 
        housing. Adult shelters are inappropriate and often unsafe for 
        young people. Youth will choose many other options over 
        crowded, frightening adult shelters, including options that are 
        not safe for them.
    Our goal, as agencies supporting homeless youth, is to connect with 
youth as quickly as we can early in their homelessness. Early and 
comprehensive supportive services help them avoid long-term and chronic 
homelessness, becoming victims of sex trafficking, being forced to 
engage in sex work or illegal activities just to make ends meet, having 
to drop out of high school and college, and other negative outcomes.
    These young people face extraordinary challenges, but supporting 
them is an opportunity for the larger community. We all benefit as they 
move from surviving the streets to thriving young adults.
                 youth continuum, greater new haven, ct
    Youth Continuum has served homeless youth in the Greater New Haven, 
CT area since 1997. On average, our Street Outreach Program identifies 
between 200 and 250 new homeless youth each year. Through our DHHS 
funded Basic Center Shelter, Transitional Living Program, and HUD 
housing programs we provide housing for approximately 40-50 youth 
annually.
    For most homeless youth, the options for finding housing are 
extremely limited due to current local systems and Federal guidelines.
  --There are no youth shelters for non-system youth and most young 
        people do not feel safe in adult shelters where the population 
        is primarily chronic older adults and those with serious mental 
        health and substance abuse issues. Adult shelter providers are 
        not trained to understand the unique needs of youth and are 
        generally unaware of normal adolescent brain development and 
        the implications for treatment, nor do they employ a Positive 
        Youth Development framework, as skilled youth providers would.
  --Few homeless youth meet the requirements for Permanent Supportive 
        Housing; they are generally low on the priority list for rapid 
        rehousing dollars, which they are often ineligible for, given a 
        lack of prior employment or rent history.
  --Existing HUD guidelines prioritize chronically homeless adults and 
        veterans, making youth needs low on the priority list. As youth 
        do not qualify as `chronically homeless' they fail to rise to 
        the levels to compete for housing with adults who have medical 
        and psychiatric conditions to go along with their history of 
        chronic homelessness.
    As providers of youth services, including services to those in the 
State's child welfare and juvenile justice systems, we regularly see 
how the failures of those systems lead to youth homelessness, as well 
as how homelessness makes these youth more likely to end up in the 
justice system. As this country moves forward on the efforts to end 
homelessness for all, we desperately need to go `up-stream' to stop 
youth from becoming the next generation of chronically homeless. In 
order to do this, we need Federal guidelines which recognize the true 
nature of youth homeless and allow access to services to prevent and 
end this situation.
    Unlike adults who can often be diverted from care, youth require 
urgent access to care and support. These youth are survivors, but not 
without a great deal of damage to them along the way. The statistic 
regarding homeless youth to increased risks of sexual assault, drug 
use, HIV/Aids, prostitution, pregnancy, and incarceration, as well as 
lower graduation and employment rates, clearly indicate that these 
young people are not being given the opportunity for a bright, 
productive future that we hold out to young people in America.
stacey violante cote, esq., msw, director, teen legal advocacy project, 
              center for children's advocacy, hartford, ct
    The Center for Children's Advocacy (CCA), located in Hartford, CT 
was founded in 1997. CCA's mission is to improve the child welfare, 
juvenile justice, mental health, health and education systems' 
responses to the needs of poor children by 1) providing holistic legal 
services to poor children in their communities and 2) improving legal 
representation of poor children. CCA locates its attorneys within each 
system, in offices at healthcare programs in Hartford and New Britain 
and schools in Hartford and Bridgeport, where they are available to 
children whose needs for services and appropriate treatment by 
government agencies are not being met. CCA attorneys also conduct 
outreach at youth shelters, schools and community programs in Greater 
Hartford, Fairfield County and New Haven, to educate children about 
their legal rights and provide legal representation.
    The current HUD definition of homelessness excludes many of the 
homeless youth CCA comes into contact with. Most of the youth we work 
with are staying in temporary, unsafe locations on couches, in 
acquaintances' homes, and even trading sex for a safe place to sleep. 
This was documented in a recent study conducted by Yale's Consultation 
Center in Connecticut entitled, ``Invisible No More: Creating 
Opportunities for Youth who are Homeless.'' In the Study, several youth 
reported that they had traded sex for money (N = 7; 7.1 percent), a 
place to stay (N = 8; 8.2 percent); and drugs or alcohol (N = 4; 4.1 
percent). Because the definition excludes many of our clients, these 
youth are forced to stay in unsafe living situations because they 
cannot access supports.
                   bill wilson center, santa cruz, ca
    We wonder why there is so much confusion surrounding homelessness 
when the truest definition seems obvious. It rests with the people 
experiencing it. A family knows when they are homeless. Instead of 
looking forward to the holiday season, they are simply hoping to 
survive. They might be living in a homeless encampment or in their 
car--or at a motel renting by the week, or doubled up on the sofas or 
in the garages of friends. These survival strategies are not long-term, 
nor do they mean the family is adequately housed. Parents often go to 
every length they can to keep a roof over their children's heads, but 
just because they are temporarily successful with motels or couch-
surfing does not mean they are not homeless. Too often, homeless 
children are invisible to the systems meant to protect them.
    At Bill Wilson Center, we know firsthand that young people 
experiencing homelessness are survivors, and for many, their survival 
strategies push them out of HUD's definition of ``homeless,'' even when 
their lives and well-being are at risk. These troubling discrepancies 
in the counts of homeless families and youth can cause a misdirection 
or reduction of resources available for combating homelessness. When 
lives are at stake, a clear, consistent definition across all agencies 
that are supposed to help is critical.
            larkin street youth services, san francisco, ca
    Larkin Street Youth Services is the main provider of services for 
runaway and homeless youth in San Francisco, last year reaching over 
3,400 youth ages 12-24. Our programs provide youth with crisis 
intervention, housing, intensive case management, medical care, 
education, job training, and other vital support services.
    Prior to entering our services, many youth bounce around, staying 
temporarily with friends or family for periods of time. Their futures 
are uncertain and these youth often do not know when they will wear out 
their welcome and be forced out onto the streets. Approximately 1/3 of 
youth who access our services said that the last stable place they had 
to live was with a family member.
    The failure of HUD to allow some homeless youth to access homeless 
services has serious and far-reaching effects, including exclusion of 
these populations from critical services, continued invisibility in 
community planning on homelessness, and weak or non-existent 
coordination with key systems of care for children and youth.

           In Their Own Words--Statements From Homeless Youth

    ``My experiences with my biological family have been anything but 
positive and supportive . . . The situation at my father's house 
continued to escalate and a second order of protection was granted for 
me. I am currently a displaced teen. I am temporarily sleeping in the 
living room of my older half-brother's biological father's apartment. I 
am responsible to provide for my own needs such as food and clothing. I 
am responsible to get myself up and ready for school each day. When I 
can go to sleep at night, I do not want to worry about everyday 
situations as much as I have already in my short life. I want to live 
happy and productive.''
--K.F., Staten Island

    ``Initially, the arrangements felt like sanctuary. After all, 
anything was better than living with either one of my parents, who were 
incapable of taking proper care of themselves, let alone children. 
There were two bedrooms, five people, and an old cat that acted more 
like a sixth person than a pet. My great uncle, who had suffered a 
major heart attack in 2002, had one of the bedrooms because the heart 
attack had left him with a plethora of mental and physical illnesses. 
My little brother, who was nine at the time, moved into the other 
bedroom. The adults in the situation had all agreed that the most 
important thing was for the youngest child to have a somewhat stable 
environment and his own personal space so he could sleep well at night 
and still go to school. My elderly grandmother, with her own abundance 
of physical and mental illnesses, along with my older brother of 
eighteen, slept in recliner chairs in what we considered to be the 
living room. As for me, the only option left was to just throw a 
blanket down on the kitchen floor. It was literally the only spot in 
the whole apartment not occupied.''
--K.S., Maine

    ``Stability is a word I never really understood until last year. 
There was not one thing in my life growing up that ever held constant. 
Whether it was where I lived, the state my father was in, or the times 
when my mother decided to be a parent, I was never allowed to 
experience the concept of certainty. I never thought that 16-year-olds 
would have to worry about where they were living the next day. Whether 
it was a motel room with one bathroom, two beds, and six other people 
enclosed by four bare white walls, or an upgrade to a rundown trailer 
with barely and food or privacy, my living arrangements were never 
really home.''
--M.D., Wisconsin

    ``When I was 12 years old, I entered the foster care system. After 
living with my foster mom for close to 6 years, she adopted me and my 
younger sister. Then, not even a year later, and 3 days after my 
eighteenth birthday, my adopted mom kicked me out of the house. She was 
physically, emotionally, and verbally abusive to me for years. However, 
her throwing me out on the street was still a bit of a shock. I knew I 
did not have time to cry over it. I packed my things, called one of my 
best friends, and went to live with her and her mother in their small, 
two-bedroom apartment.
    I am truly grateful to my friend and her mother, because without 
them, I do not know what I would have done. Unfortunately, their home 
was not exactly a stable environment, nor was it a permanent one. I 
slept on a pull-out mattress in the living room with all my belongings 
shoved in suitcases under my friend's bed, or thrown haphazardly into 
her mother's spare closet. I knew I could not stay there indefinitely 
because the landlord forbids anyone but the tenants to live there. If 
the landlord found out that I was living there, my friend and her 
mother would have been evicted, and they would have become homeless as 
well. ''
--R.S., Louisiana

    ``After my father's death, my mother crumbled, as the 21 years of 
comfort provided to her was gone, and was quickly replaced with crack/
cocaine. Several encounters with law enforcement due to her worsening 
addiction caused her to go to prison for 3 years. Those continuous 
series of events left me helpless. I was shuffled from family member to 
family member, who all treated me as if I were a burden. Blood then 
trickled to water, and family meant nothing to me. I was legitimately 
ALONE. Hiding this secret was a challenge. I did not know that my 
secrets placed me in a growing category of unaccompanied youth.
    Reaching out to my guidance counselor for support, she paved a 
pathway for me to follow. I looked at school as a getaway and excelled 
in academics, despite the constant stress of not knowing if I was even 
welcome in my own ``home.'' I strove to stay active and busy to escape 
the reality of loneliness. I played basketball for my high school, 
which took three more hours away from the home life that I desperately 
wanted to escape. I also volunteered over 200 hours at the middle 
school where I tutored students and kept busy until later in the day, 
just to keep away from ``home.'' My ``family'' made it clear that I was 
unwanted; this lasted until my sophomore year, when a small argument 
led to my physically being put out of the house. I hit rock bottom.''
--T.G., Florida

    ``One time I wanted to go to DHR, but one person encouraged me not 
to go. It was one of my friends. She told me that I could come and stay 
with her. I lived with my friend for a year, until her mother told me 
to leave because she didn't want to take care of me anymore. I needed a 
place to stay, so I used what little money I had saved up and stayed in 
a motel by myself for a while.
    On another occasion, I had stayed with another friend. Things were 
going great until we had an argument one night, and they kicked me out 
of their house. I was homeless again. I packed my things and left with 
no transportation. I walked through the night by myself. I didn't know 
where my mother was. Finally, I stopped at a neighbor's house and 
called my cousin to come and get me. My cousin took me back to get my 
valuables, but they were nowhere to be found. My ``friends'' had stolen 
all of my clothes and other belongings. When I asked for my things 
back, they tried to run over me with their car.
    There was also a time when I lived with people who almost killed my 
mother. Her arm was broken, and the bones on the right side of her face 
were broken. Still today, she suffers from the effects of the beatings, 
such as the lack of feeling in her face.''
--T.B., Alabama

    ``At 13 years old is when I started living with other people. My 
friends all had their back doors open for me specifically or a window. 
I climbed in the window sometimes. But when I was 15 years old is when 
I packed my bags and said I wasn't coming back. And that meant that I 
already knew at least one family that I could stay with, but I knew 
that it meant that I was gonna be staying with multiple people. And so, 
from the time I was 15, officially, until the time I was 18, I moved 
every two or three weeks, and I lived out of garbage bags and 
backpacks. I lived at two or three different houses at once basically, 
so that I never had to ask one person if I could live with them. 
Because people shouldn't be having sleepovers on a school night. And 
especially, you know, if you smell bad, or have a backpack full of 
clothes with you.''
--B.S., Washington State

    ``I was staying with a lot of other people. Whenever somebody's 
parents would let me stay at their house for the night, I would stay 
there. A lot of times it was during school, so I couldn't stay the 
night because you know, no sleepovers on school night. I stayed in the 
dorms on base--I had a friend who was an airman. He risked getting in 
trouble, because he could get in a lot of trouble for having anybody in 
your dorm past 9:00, I believe. So I put him in a situation where he 
could really get in trouble.''
--E.S., Florida

    ``My parents would lock the door on me, and so I'd either be 
wandering all night, or find somewhere to go. But being in high school, 
a lot of people don't want you staying the night at their house because 
it's a school night. So I moved around countless times. Overstaying 
your welcome is a big part of being homeless. You can't stay somewhere 
for too long, because you can't provide for them being so young. So you 
just kind of stay for a couple of weeks, a month, and you end up 
somewhere else eventually. That's what I was doing throughout high 
school. And being a girl it's different, because when you stay at other 
people's places, a lot of guys kind of take advantage of that and want 
to get something more out of you, I guess.''
--C.W., Michigan

    Senator Collins. Thank you for your testimony. Ms. Dixon, 
thank you so much for taking time off from your job as an 
education technician and coming to Washington, your first trip 
here I am told.
    Ms. Dixon. Yes.
STATEMENT OF BRITTANY DIXON, FORMER HOMELESS YOUTH, 
            EDUCATION TECHNICIAN
    Ms. Dixon. Hello, everyone. My name is Brittany Dixon. 
Thank you for the opportunity to come to Washington and share 
my experiences before the U.S. Senate. I come from a lower 
middle class family in Auburn, Maine. In no way would I ever 
say that my life has been terrible, but throughout my life 
there was a lot of family conflict and instability. My story 
shows that homelessness can happen to anyone.
    During the summer after my senior year in high school, I 
found myself in a situation with nowhere to go. After a final 
dispute with my mother, she told me to leave and made me 
homeless at the age of 18. I couch surfed with friends, moving 
from place to place for over a month. Sometimes I did not know 
where my next place to stay would be or for how long I would be 
welcome. Nothing can prepare a teenager for the overwhelming 
and frightened feelings of being alone and having nowhere to go 
and no one to turn after losing the sense of safety and 
security that having a place to call home can provide.
    I did not know where to turn, but eventually through 
friends and a domestic violence helpline, Safe Voices, I was 
connected to New Beginnings. For those of you who do not know, 
New Beginnings is a nonprofit organization that provides 
emergency services and transitional living programs for youth 
throughout the State of Maine. Through the support of HUD and 
other programs, like the Runaway and Homeless Youth Act, they 
have worked to improve the lives of homeless youth and families 
in crisis for over 35 years.
    During the time that I stayed there, I worked with adults 
who helped me know I deserved to feel safe and could work 
towards my personal goals of being a teacher. After several 
interviews, New Beginnings found me a place in a transitional 
living program in Lewiston, Maine. It was great living there. 
New Beginnings provided many resources I could use to succeed, 
including assistance with college applications and financial 
aid. I also worked with my case manager, Victor, to learn to 
use public transportation to get to and from work, to access 
affordable food, to get health insurance through Maine Care, to 
practice lots of job skills, to find bargains, save money, and 
use a budget, to pay rent on time, and to take care of my 
apartment. While staying at New Beginnings transitional 
housing, my rent was supported by Section 8. New Beginnings has 
helped me to develop critical life skills and to become self-
sufficient. I have even learned how to bake, which I was not 
able to do growing up. I never knew how much fun baking could 
be.
    The biggest help New Beginnings was able to provide was 
with my self-esteem. When I first entered the program, it 
seemed like I was apologizing every 10 seconds or so because I 
thought everything was my fault. I was super thankful that I 
had been accepted into their program, but at the same time I 
felt like I was burdening everyone around me. I worked very 
hard with my caseworker to get to the root of why I felt the 
way I did, and discovered that I was not a burden and that I 
was only responsible for what I could control. We discussed my 
problems, and I learned to use more confident communication and 
interpersonal skills to improve relationships in my life with 
both friends and family. I learned to be much more confident 
making decisions for myself. There is no way I would be where I 
am now without the help of New Beginnings.
    I stayed in the program for a year and a half, and after 
attending Central Maine Community College, I was accepted to 
the University of Maine, Farmington, and graduated with a 
bachelor's degree in elementary education in 2013. During 3 
years of my college time, I did work study to support myself 
and my college expenses. I really appreciated that New 
Beginnings supported my decision to focus on education to work 
towards my career. I now work full time as an educational 
technician for Washburn Elementary School in Auburn, and I am 
planning to become a kindergarten teacher as soon as a position 
opens. I no longer need help with rental assistance because I 
can afford to live in my own apartment.
    Programs that support homeless youth are important to so 
many young people like me. It gives young people the chance to 
have a safe place to stay while they get their footing and 
figure out what they want to do in their lives. It is important 
for every youth who faces homelessness to have funding for 
transitional and temporary programs that help them learn, be 
supported, and have a safe place to stay. I did not need to be 
supported forever, only until I could move to the level for 
myself.
    Thank you for the opportunity to share my experience and 
for supporting programs like these.
    [The statement follows:]
                Prepared Statement of Ms. Brittany Dixon
    Hello. My name is Brittany Dixon. Thank you for the opportunity to 
come to Washington and share my experiences before the U.S. Senate. I 
come from a lower middle class family in Auburn, Maine. In no way would 
I ever say that my life has been terrible, but throughout my life, 
there was a lot of family conflict and instability. My story shows that 
homelessness can happen to anyone.
    During the summer after my senior year in high school, I found 
myself in a situation with nowhere to go. After a final dispute with my 
mother, she told me to leave and made me homeless at the age of 18. I 
couch surfed with friends and family, moving from place to place for 
over a month. Sometimes I didn't know where my next place to stay would 
be or for how long I would be welcome.
    Nothing can prepare a teenager for the overwhelming and frightening 
feelings of being alone and having nowhere to go and no one to turn to 
after losing the sense of safety and security that having a place to 
call home can provide.
    I didn't know where to turn but eventually through friends and a 
domestic violence help line, Safe Voices, I was connected to New 
Beginnings. For those of you who don't know, New Beginnings is a non-
profit organization that provides emergency services and transitional 
living programs for youth throughout the State of Maine. Through the 
support of HUD and other programs like the Runaway and Homeless Youth 
Act, they have worked to improve the lives of homeless youth and 
families in crisis for over 35 years. During the time that I stayed 
there I worked with adults who helped me know I deserved to feel safe 
and could work toward my personal goals of being a teacher.
    After several interviews, New Beginnings found me a place in their 
transitional living program in Lewiston, Maine. It was great living 
there. New Beginnings provided many resources I could use to succeed, 
including assistance with college applications and financial aid. I 
also worked with my case manager to learn to use public transportation, 
to get to and from work, to access affordable food, to get health 
insurance through MaineCare, to practice lots of job skills, to find 
bargains, save money and use a budget, to pay rent on time and to take 
care of my apartment. While staying at New Beginnings transitional 
housing, my rent was supported by Section 8. New Beginnings has helped 
me to develop critical life skills and to become self-sufficient. I 
have even learned how to bake which I wasn't able to do growing up. I 
never knew how much fun baking can be.
    The biggest help New Beginnings was able to provide was with my 
self-esteem. When I first entered the program, it seemed like I was 
apologizing every ten seconds or so because I thought everything was my 
fault. I was super thankful that I had been accepted into their 
program, but at the same time I felt like I was burdening everyone 
around me. I worked very hard with my case worker to get to the root of 
why I felt the way I did and discovered that I wasn't a burden and that 
I was only responsible for what I could control. We discussed my 
problems and I learned to use more confident communication and 
interpersonal skills to improve relationships in my life with both 
friends and family. I learned to be much more confident making 
decisions for myself. There is no way I would be where I am now without 
the help of New Beginnings.
    I stayed in the program for a year and a half, and after attending 
Central Maine Community College, I was accepted to the University of 
Maine Farmington and graduated with a bachelor's degree in Elementary 
Education in 2013. During 3 years of my college time I did work study 
to help support myself and my college expenses. I really appreciated 
that New Beginnings supported my decision to focus on education to work 
toward my career. I now work full time as an Educational Technician for 
Washburn Elementary School in Auburn and am planning to become a 
kindergarten teacher as soon as a position opens. I no longer need help 
with rental assistance because I can afford to live in my own 
apartment.
    Programs that support homeless youth are important to so many young 
people like me. It gives young people the chance to have a safe place 
to stay while they get their footing and figure out what they want to 
do in their lives. It is important for every youth who faces 
homelessness to have funding for transitional and temporary programs 
that help them learn, be supported and have a safe place to stay. I 
didn't need to be supported forever, only until I could move to the 
next level for myself. Thank you for the opportunity to share my 
experience and for supporting programs like these.

    Senator Collins. Thank you very much, Brittany. You did a 
great job. And I will tell you that Senator Reed just passed me 
a note saying ``We rest our case.''
    That there is nothing else that needs to be said. Your 
transition from being homeless, to then going to New 
Beginnings, to going to the community college, to going to the 
University of Maine at Farmington. And now here you are fully 
self-sufficient and working as an ed tech is the kind of story 
we would like to hear all over the United States. So I am so 
proud of you because I know that took a lot of work and 
strength on your part.

                  CRITICAL SERVICES FOR HOMELESS YOUTH

    I wondered based on your experience if you could tell us 
what made the biggest difference to you in your success, and 
what--since you met other homeless youth, what do you think are 
the critical services that we need to be providing?
    Ms. Dixon. So having an adult who knew my story, that one-
to-one relationship helped greatly in getting me prepared to be 
on my own. He understood my needs and knew what I needed to 
succeed. He knew how to speed up the processes, such as getting 
affordable food, rather than me doing it on my own. The program 
was also very flexible with me being out of work for 3 months. 
The staff there understood that going through college and 
working on my goals was more important.

                 ELIGIBILITY BARRIERS TO SERVING YOUTH

    Senator Collins. Thank you. Ms. Shore, you mentioned the 
barriers and eligibility difficulties that can make it very 
hard to serve these young homeless and runaway youth. Could you 
be more specific? Are there certain definitions in the 
regulations? Is there an issue where you arrive at an adult 
shelter and they are just turned away without any assistance? 
What are those specific eligibility barriers that you see?
    Ms. Shore. Well, in order for youth to access a lot of the 
HUD services, they need to be able to provide documentation or 
show that they are, in fact, defined as homeless in the 
definitions that HUD has, and to get that documentation is 
often really daunting. I mentioned in my speech that it becomes 
a problem of young people not having the kind of power 
relationship to be able to ask someone to give them a letter, 
to get the documentation from somebody where they are feeling 
abused.
    Also the documentation requires you to say that you cannot 
live there for less than 14 days--14 days, and often they do 
not know how long they are going to be able to stay. And they 
feel--it is an uncomfortable and not stable situation that they 
are in. And so, asking them to find people who are willing to 
document for them that they are, in fact, truly homeless is 
something that is simply very difficult to get. The other way 
is that young people go to adult shelters, and many young 
people feel very uncomfortable and feel as if adult shelters 
are not a safe place for them.

                  FEDERAL PARTNERSHIPS WITH NONPROFITS

    Senator Collins. Cyndi, you mentioned that True Colors is 
partnering with HUD and four other agencies on an LGBT youth 
homeless prevention initiative. Do you have any observations 
you could share with us on how well the Federal Government 
works with local nonprofits?
    Ms. Lauper. It actually does work because that is what we 
have been doing. We have done this all across the country, but 
especially there is an initiative that I told you about in 
Cincinnati and Houston, and we are working with HUD and the 
service providers. And if this initiative works, as I said 
before, it becomes a pilot. It becomes a program, a system that 
we work in the communities and the types of communities they 
are. I think that you have to be inclusive with all these 
agencies because everyone has information that the other one 
would need.

                   ACCURATELY COUNTING HOMELESS YOUTH

    Senator Collins. Thank you. Ms. Ho, in the 1 minute that I 
have left, I want to associate myself with the comments of 
Senator Feinstein because I understand the Point in Time count 
and what it is intended for, but I think it grossly 
underestimates the problem. In my State of Maine, there has 
been a real spike in one city in the number of homeless 
students. Southport since July 1st has seen an increase from 74 
students who are homeless to 107 students who are homeless. 
Well, if you look at the numbers for our State as a whole, it 
just does not click. It does not make sense.
    And the reason I think this is important is if the problem 
is 194,000 young people who are homeless, it is very different 
in terms of the resources that are needed than if it is 1.4 
million students or young people who are homeless. So what is 
HUD doing to try to get a more accurate count?
    Ms. Ho. Chairman Collins, thank you for the question. I 
could not agree more. And when we started working on youth 
homelessness across the Federal agencies, the first observation 
we had is that we had numbers that ranged from 50,000 to 1.6 
million. And it is very hard to figure out how to solve a 
problem that is plus or minus 1.6 million.
    But it is also a convoy of different things, right? The 
Point in Time count of esteemed Senators in the room today is 
very different than the annualized count of Senators over the 
course of a year, and it is very different than the count of 
all Congress people. And I think that we are talking about this 
kind of apples, oranges, and grapefruits, if you will, when we 
are thinking about these comparisons.
    So what we are doing to make the data better is a few 
things. One is we started out with a project called Youth Count 
where we asked communities to work with us on specific 
strategies to get all the players around the table and plan a 
comprehensive count of youth for the Point in Time count, and 
what were the strategies that they used, and did they get 
better success.
    I will tell you the bare standard for me is we do not even 
count every youth who is in care on a given night, which means 
that all the providers and systems are not working together to 
just get that basic baseline. We need to do that. So we know 
that our count of unaccompanied youth is an under count, and we 
actually expect it to go up because we are asking communities 
to work together more collaboratively the way we are here in 
Washington to figure out how to make these pieces work.
    The other piece, if I can just quickly, is that we are 
doing data integration so we get a better annualized count. HHS 
has the runaway and homeless youth programs. HUD has the 
Continuum of Care programs. As I mentioned earlier, I do not 
know if I said it specifically, through the Continuum of Care 
we put over $79 million a year into programs specifically 
serving youth, right, in addition to the runaway homeless youth 
programs. But we are collecting data differently, so we did not 
have an accurate picture of youth moving through the system.
    This month the runaway and homeless youth providers just 
started entering information into our homeless management 
information system. Now, I know this makes me sound like a 
bureaucrat because I am talking about these data systems, but 
it is going to give communities a much better picture of youth 
who come in, how they are served, and how they succeed and move 
on, and what the gaps are. So we are very focused on better 
data. Thank you so much for the question.
    Senator Collins. Thank you. Senator Reed.
    Senator Reed. Well, thank you, Mr. Chairman. And, Ms. Ho, 
the testimony of Ms. Shore was quite compelling and quite 
interesting, and the chairman's questions were right on point. 
And you have responded, I think, very articulately, but this is 
just for further clarification.
    You can do within the present statutory framework through 
guidance, through cooperation and coordination, a much more 
accurate count of homeless youth. Is that your conclusion?
    Ms. Ho. Senator Reed, thank you, and thank you for your 
leadership on this and the opportunity to speak more to the 
issue. We are doing a better job, and we need to do a better 
job yet. And the leadership in getting advocates, providers, 
education, HHS, HUD, the United States Interagency Council on 
Homelessness (USICH), everybody on the same page around what we 
need to do in order to get a better count, what we need to do 
to get a better sense of how much of what do we need for whom. 
That I think is the critical moment that we are at right now. I 
think that historically, at least when I came to Washington 5 
years ago, we did not at HUD have the National Network for 
Youth at the table at HUD helping us think about these 
strategies. I will tell you, Debbie got me over to Sasha Bruce 
I think in the first 6 months that I was in DC, and we have 
been talking ever since. And in those conversations, she has 
really helped HUD understand the level of misunderstanding that 
is out there around the country around both eligibility and 
documentation.
    If I could just really quickly say, the burden of 
documentation is on the provider. It is not on the young 
people. And there is always an option for a young person to 
self-certify. We would never, ever, ever ask a young person to 
go into a dangerous or precarious situation to give us 
paperwork so that they could get access to the services that 
they need.
    And I absolutely agree with Debbie on the fact that an 
adult shelter is no place for a young person to go. In many 
situations adult shelters are almost as unsafe for some young 
people as the streets, and certainly it is not a place where 
you necessarily are going to immediately get the great role 
models that Brittany talked about as being so important.
    So, I mean, we agree on many things, but I think that what 
I have really come to see is that there is just a real huge 
amount of misinformation amongst well-intentioned providers and 
advocates. And that is a place where I think all of us working 
together could do more to get the right information out there 
to make sure that no young person feels like they cannot get a 
safe place to stay because there is some screen.

           TRAINING AND EDUCATION FOR LOCAL SERVICE PROVIDERS

    Senator Reed. I think what you are saying, and I will ask 
Ms. Shore to comment, too, is that, you know, you here in 
Washington have collaborated, and you have got the sense of, 
you know, we can do this together. We have got better 
information. The burden of documentation is not on the 
youngster, it is on the provider, et cetera. My sense is that 
it is not translating into the communities, and that we have to 
empower you and direct you to go to the communities to have 
course training, to have information to let them know what they 
can do and what they must do. Is that a fair statement?
    Ms. Ho. Senator Reed, yes, and thank you. We do need to do 
more, and we need to do more together and not just from HUD, 
but with HHS, with the national advocacy groups. We are doing a 
lot of work at national conferences, you know. We are doing 
much more dialogue with groups like the National Network for 
Youth. The National Alliance to End Homelessness is here today.

                        ELIGIBILITY REQUIREMENTS

    I mean, I think there are really two basic 
misunderstandings here. One is on the burden on documentation, 
and the other is on who is actually eligible for HUD programs. 
But the other piece is sometimes it is not about HUD's 
eligibility rules. Sometimes individual providers overlay 
stricter eligibility requirements that we do not have, and 
frankly many of which we do not like. We think that the door 
should be open for any youth who shows up, and there should not 
be some standard for a homeless youth being able to walk into 
that door.
    And, you know, on the other side, I think that we cannot 
continue to perpetuate the misunderstanding that youth who are 
in harm's way or in a car or, you know, are at imminent risk of 
being thrown out of the place that they are bouncing from 
cannot present at the door.
    I think the other big challenge is that a youth who becomes 
homeless for the first time, they have not been studying in 
high school the list of homeless services that might be 
available to them if a crisis occurs, right? I mean, so a lot 
of youth who are in crisis end up not standing at the door of a 
service provider, but out on the streets or with a friend. And 
so, how do we work together to create an environment where 
every youth has a safe place to stay?
    Senator Reed. Ms. Shore, can you comment quickly, and then 
I want to ask one question to Ms. Lauper.
    Ms. Shore. I think that, you know, we have young people who 
go to great lengths to try to not appear homeless, to not be 
known to the public systems. And we have young people who are 
in the situation where they really have to be able to go into a 
milieu and a situation where they will disclose and where they 
will talk with people about what is really going on with them. 
And that does not happen in a lot of the adult shelters.
    And young people typically are couch surfing, and so when 
you have young people who are couch surfing, coming to the 
system asking for service when that couch surfing situation is 
no longer viable. It becomes a situation in which they need to 
provide documentation, and the verification of that 
documentation is done by the system. It is not done by our 
runaway and homeless youth program or the provider at the 
school, the school liaison. Were it, I think that might be 
helpful.
    But I think that it is much more--I mean, the overwhelming 
nature of the reports, the overwhelming number of reports that 
there are, that these problems are happening in a very, very 
significant way all over the country says that we have 
something that is larger than simply a misunderstanding, you 
know. Something greater needs to be done, and perhaps that 
greater thing is to do a lot of this cross training, but to 
also recognize that we need to have a system in which young 
people can enter more easily, and where the services are 
accessible so that we are not leaving young people in harm's 
way.
    Senator Reed. Thank you very much, and I presume we might 
have a second round?
    Senator Collins. Yes.
    Senator Reed. I will yield my time back to the chairman.
    Senator Collins. Thank you. Senator Cassidy.
    Senator Cassidy. Thank you. I enjoyed each of your 
testimonies. Thank you. Ms. Lauper, I applaud you. Research is 
what is needed, so thank you for emphasizing that in your 
testimony.
    Ms. Ho, it was nice to read your testimony with Ms. Shore's 
because she gave a series of anecdotes demonstrating kind of 
the breadth of those who might need services. Your testimony 
emphasized the primary role of familial conflict in leading to 
homelessness for youth, and I think, Ms. Dixon, your kind of 
testimony is an example of that. But, Ms. Shore, you also 
mentioned those who are mentally retarded, those who are 
mentally ill, those who are pregnant, those whose parents were 
addicts, and so kind of a greater breadth.

                IDENTIFYING CAUSES OF YOUTH HOMELESSNESS

    So do you have an epidemiology--I am a doc, so I am going 
to speak clinically I hope. Do we have an epidemiology of the 
causes of homelessness? You know, this percent is because of 
family conflict, not unrelated, and this percent of people are 
mentally retarded, et cetera. Do we know the profile of those 
who are homeless?
    Ms. Ho. Okay. Well, Doctor and Senator, thank you. Thank 
you for your great interest in this topic. We need better data. 
I think that we know a fair amount about many of the causes, 
but for every young person it is a different chain of events.
    Senator Cassidy. I accept that, but it is interesting in 
Ms. Shore's testimony there are several who are mentally 
retarded, and several who are pregnant, and several who are 
mentally ill, so knowing that each is an individual. And the 
reason I bring this up because when I read the kind of 
amendment I was given some information from HHS, the broader 
working group, the Interagency Working Group, there is an 
emphasis upon having a continuum of services.
    Now, if someone is mentally ill, his homelessness will 
continue unless there is some addressing of that mental 
illness. If someone is pregnant and has a child, then her needs 
are going to be unique, but there are going to be a bunch of 
them with that unique need. Does that make sense?
    Ms. Ho. Thank you, sir. Thank you for clarifying your 
question so I have a better sense of how to answer it. My 
apologies. First of all, mental illness oftentimes does----
    Senator Cassidy. And I do not mean to interrupt----
    Ms. Ho [continuing]. Clearly adulthood. Yes, sir?
    Senator Cassidy. I do not mean to interrupt, but I am 
interested--I am gathering that there is not a kind of 
prevalence--set of prevalence data as to the epidemiology, this 
percent would be mentally ill. And, Ms. Shore, you are shaking 
your head no.
    Ms. Shore. No, I do not. I think that we have local data 
that helps to support, you know, looking at things from, you 
know, an epidemiological perspective. But what I would say in 
response is that first youth need safety and housing, and we 
have to recognize that until we get that, we often do not even 
know all of what is going on.
    Senator Cassidy. Totally accept that. There is an immediate 
need.
    Ms. Shore. Right.

                     PREVENTING YOUTH HOMELESSNESS

    Senator Cassidy. There is immediate need, so I am not being 
clinical for the sake of being clinical, but if we are going to 
end homelessness, we have two aspects to this. We have to meet 
the immediate need, but then if we are going to end 
homelessness, we then have to figure out what is causing it, 
and how to, one, prevent the cause, or if the cause is 
unpreventable--mental illness, major mental illness-- how to 
exit somebody.
    Ms. Ho. Right.
    Senator Cassidy. Now, and the Interagency Working Group 
spelled that out. I was not sure I got that from your testimony 
except to set up the question. I am not criticizing your 
testimony.
    Ms. Ho. Sure.
    Senator Cassidy. But just to set up that--and for us we 
need a more sophisticated, yes, we need to have that housing I 
suppose, absolutely we need to have a way to prevent, and then 
we need an exit strategy for those who are affected. Make 
sense?
    Ms. Ho. Yes, sir. And so, let me just add some depth to the 
way that we are thinking about this. We want to prevent 
homelessness for young people whenever we can, and when it 
happens, oftentimes with mediation people can go back home or 
they can go to relatives and that. But when young people cannot 
go back home or if there is not a safe place for them to go, 
there absolutely needs to be a safe place to stay. And I think 
we all agree on----
    Senator Cassidy. So let me interrupt there because I only 
have 40 seconds left.
    Ms. Ho. Yes, sir.

                    HOMELESSNESS YOUTH WITH CHILDREN

    Senator Cassidy. You had mentioned and I liked your kind of 
passion when you said absolutely, whatever their complexity of 
admissions, we are going to provide a safe place to stay. But 
your anecdote, Ms. Shore, was touching. The young girl who is 
pregnant or with child, and would not be eligible because she 
is with child, not just pregnant, but I gather even pregnancy. 
So, Ms. Ho, for that young girl who is pregnant, can she show 
up and, by golly, she is going to have a place to stay?
    Ms. Ho. Senator Cassidy, in HUD's programs, we do not make 
a distinction around somebody who is by themselves and not 
pregnant, somebody who is pregnant, somebody who comes and has 
a child with us----
    Senator Cassidy. Now, Ms. Shore, in your anecdote, you seem 
to suggest there is distinction.
    Ms. Shore. I think that that was because there was not a 
single--the requirement--what they had available was not 
available for a young mother with a child.
    Senator Cassidy. I am missing this. Who is ``they?'' What 
``they'' have available. Who is ``they?''
    Ms. Shore. In that case I think it would be the Continuum 
of Care in that area has a certain arrangement of services.
    Senator Cassidy. Is that a program funded by this bill?
    Ms. Shore. Yes.
    Senator Cassidy. It is.
    Ms. Shore. Very much so.
    Senator Cassidy. That seems to be out of sorts with what 
Ms. Ho just said. Do you follow what I am saying?
    Ms. Shore. Yes.
    Senator Cassidy. So yes or no, what we are funding does 
provide coverage for that young girl who is pregnant and their 
child or not?
    Ms. Ho. Yes, sir. If HUD funds a transitional housing 
program, we define ``family'' as however a household or family 
presents. But there are different programs----
    Senator Cassidy. I am out of time. I hope somebody will 
follow up. But Ms. Shore I will note is kind of----
    Ms. Ho. Be happy to follow up with you, sir, on this.
    Senator Cassidy. She looked kind of dubious when you said 
that.
    Ms. Ho. Debbie and I would be happy to follow up with you 
together on this, sir.
    Ms. Shore. Yes, I think that would be good.
    Senator Collins. Thank you very much, Senator. I actually 
think you have raised a really important point because our 
subcommittee has been contacted just 2 weeks ago by a youth who 
was turned away because he did not have the documentation 
needed, so I think this is more of a problem. And there is--I 
recently signed a letter requesting $2 million for a prevalence 
study that HHS wants to conduct to look exactly at the issue 
you have raised. And I think--so I think you have raised a 
really good point. I do not mean to delay Senator Schatz, and I 
am delighted to call on him.

                               LGBT YOUTH

    Senator Schatz. Thank you, Chairman Collins. Thank you all 
for your testimony. I am interested in a couple of things. 
First of all, this 7 percent of the youth population being 
LGBT, yet representing 40 percent of the homeless youth count. 
Knowing that the data is still uneven and that there is a lot 
of work to do that in space, how did we arrive at that? I 
understand that the total count is still a work in progress, 
but how do we know that 40 percent of the youth homeless are 
LGBT? Maybe Ms. Ho to start.
    Ms. Lauper. We will start together. We have been working 
with HUD, and we also did research around the country to the 
providers, the private and the funded through the government, 
to find out what there was and what there was not, and that is 
how we--the count is, I would say, dubious because who the heck 
wants to stand up and say, hey, discriminate against me, you 
know. Some kids they are in hiding.
    Senator Schatz. So can I just--and that is fine, and I 
understand that this is our best estimate at this point in 
time, and it may be more, it may be less, but it is probably 
the number that we should work from. I am really interested in 
kind of, I guess what you would call upstream. It seems to me 
the most morally and fiscally sound way to deal with this 
problem of LGBT homelessness is to deal with bigotry, is to 
deal with bigotry and the inability of some parents and young 
people to contend with their sexual identity, with their gender 
identity. And, you know, I know about HUD's programs and I 
actually used to run a social service agency, so I know on a 
service provision side what needs to happen.
    Ms. Lauper. But, sir----
    Senator Schatz. What we need to do from a funding 
standpoint, but I am wondering how programmatically you can get 
to--and you talked briefly, Ms. Ho, about mediation.
    Ms. Lauper. About the--yeah.
    Senator Schatz. But what can we do upstream, because I 
think that is the elephant in the room is that this is caused 
by bigotry. At least that portion of the homeless population 
that are out on the streets in terrifying situations are more 
terrified to be with their parents, and I think that is the 
elephant in the room. We can fund the services and the 
provision of services, and they can wrap around, and we could 
triple the funding. But the root cause here is that our society 
has a sickness of bigotry, and I am wondering what we can do 
there programmatically. I am not suggesting that there is a 
government program for that, but I did want you to speak to it.
    Ms. Ho. Senator Schatz, Mahalo for that question, and in 
the Aloha State we hope there is no bigotry like that. I will 
tell you, when I was a young person and I came out, it was not 
bigotry, it was ignorance. My parents just were not familiar, 
and they were not comfortable. And what the research is telling 
us now, especially through the Family Acceptance Project being 
conducted out of California and other places is that when 
families understand the danger that young people are in if they 
are rejected, their risk of suicide, their risk of HIV and 
AIDS, their risk of drug and alcohol use, their risk of being 
abused on the streets, and trafficked.
    When parents are educated on the risks their child will 
have if they are rejected, parents change their minds. And I 
think that what we are really--the Family Acceptance Project is 
just that. You know, maybe we do not--are not at a place where 
we are at like full, like I am ready to march with you in 
Pride. But if we are at a place where it is like I understand 
that if our family can just make this work until you graduate 
from high school, or appreciate it, and we do not want people 
like Brittany kicked out, but if we can just make this work, 
right, that the future for young people is brighter and the 
risks are mitigated.
    And that is the work that is being done. HHS is doing a----
    Ms. Lauper. In Cincinnati.
    Ms. Ho. Yes, Cincinnati and Houston. The True Colors Fund 
has been a great advocate. It is a growing body of research 
that says that this can be overcome with good education about 
what happens. Thank you so much for that question, sir.
    Senator Schatz. Thank you very much.
    Senator Collins. Thank you, Senator. Senator Daines.
    Senator Daines. Thank you, Madam Chair. I just want to 
start by recognizing Brittany. I am very proud of you. I just 
came from a hearing down the hall with seven generals and 
admirals sitting at a similar hearing table. And the courage 
and poise for you to sit there is to be commended. And as a 
father of four, a daughter who just got an elementary education 
degree like you did, very proud of you, and best of luck to you 
as you start your career in elementary education. Thank you.

                  SHORTAGE OF RESOURCES IN RURAL AREAS

    In Montana, one of the challenges we face certainly is 
homelessness in rural America because you have a combination of 
sparser resources in Montana, colder winters. And we are seeing 
youth homelessness is on the rise. In fact, in September of 
last year, KTVA, a local Montana news source, cited that for 
the 2012 to 2013 school year, the U.S. Department of Education 
claimed that enrolled homeless students has increased by 45 
percent in Montana.
    The good news is Montanans are compassionate people and we 
have got a big heart. That spirit of generosity has allowed the 
Great Falls Rescue Mission in Great Falls, Montana to operate 
100 percent on individual donations and providing housing to 22 
children with plans to expand housing to 70 children with a new 
$7.7 million addition. Jim Kiser, who has served as the 
executive director for over 8 years, explained that they have 
been doing it all without any Federal, State, or local 
government funding. So and I am a supporter and believer in 
what we are doing here in terms of supporting efforts to 
address homelessness, but I also think this public/private 
partnership is so important as we go forward.

                      PUBLIC PRIVATE PARTNERSHIPS

    Ms. Ho, how does the plan that you're considering weigh the 
inclusion of charitable organizations in solving youth 
homelessness?
    Ms. Ho. Senator, thank you so much for that question, and 
thanks for your commitment to this issue. It is very much 
appreciated. I ran a nonprofit for 11 years. Debbie has run a 
nonprofit for 40 years. Congratulations on that by the way. 
Cyndi has got the foundation. You cannot do systems change and 
scalable work to solve this problem if you cannot figure out 
how to piece together funding from many different sources.
    And I think that what you see here is the strength of 
collaboration between nonprofits, philanthropy, the Federal 
Government. We also work very closely with State and local 
governments, but also being informed all the time by the 
experience of people who have been there. So this is about 
everybody pulling their weight and leveraging the Federal 
investment.
    I think that what we are learning at HUD how to do better 
and better every year is to be very strategic and very targeted 
in terms of how we ask communities to use the money that you 
appropriate so that we can actually get our heads around a 
systems solution that has better data, better performance 
measures, and the potential to actually solve the problem 
instead of just having a bunch of individual providers that are 
all doing good, but not having a sense that this is something--
--

                    LEGAL BARRIERS TO SERVING YOUTH

    Senator Daines. I appreciate that. I want to build on what 
Senator Cassidy and Madam Chair was addressing was this issue 
sometimes of getting through the legal hurdles here. Jim Kiser 
who directs this rescue mission in Great Falls explained, and I 
quote. He says, ``There is much in the way of legal problems 
that keep a youth from seeking housing. Our policy is to 
contact the Department of Public Health and Human Services 
prior to housing a youth as they have a legal authority to 
place in direct youth care. If I housed youth without their 
consent, there could be legal consequences for the rescue 
mission.''
    Ms. Ho, I know we are trying to strike a balance here 
between the safety of the homeless youth, which has to always 
be of the highest priority, but also with the legal hurdles 
that can keep nonprofits, such as the Great Falls Rescue 
Mission, from helping them. What are your thoughts, and how do 
we address that issue?
    Ms. Ho. Thank you, sir. We have been thinking about that a 
lot because I think that when you look at HHS's programs and 
HUD's programs, you have some HHS programs that are targeted 
specifically to the under 18, the minor youth. But then you 
have a State overlay of mandatory reporting requirements or 
maximum lengths of stay. Those are not our rules. Those are 
State rules. But how can you work with a young person who needs 
it for as long as they need if you have that overlay?
    On the flip side, with HUD's housing programs, they are 
designed for someone to have a lease. Only an emancipated minor 
or somebody who has reached the age of 18 is allowed to hold a 
lease, and so, you know, our programs are not always set up 
well in that. And obviously in emergency shelters and other 
situations, those same rules do not apply to HUD's programs, 
but the State overlay around what to do with minors is in play 
here.

                         REPORTING REQUIREMENTS

    So I think that if we are going to get to a system where 
there is a safe place for every young person to stay and a 
clear path forward based on their needs that works on kind of 
the timeline that they are on and not some type of 3-day, 5-
day, 14-day overlay, that this needs to be a dialogue that 
really starts with a vision, a vision that shows what is broken 
in the way things work today and what a better system would 
look like.
    Senator Daines. Yes, and I think the partnership is 
demonstrated right here on this table in terms of we have got 
public and private. Ms. Shore, do you have a thought on that as 
well?
    Ms. Shore. You know, what I would say is that the Runaway 
and Homeless Youth Act, which allowed us to create wonderful 
programming for young people, very much geared to young people, 
allows for a 72-hour period where we do not have to have 
parental permission unless the State changes that so that we 
can assess what is going on. And after all, we are mandatory 
reporters, so part of that assessment is this something that we 
should be more concerned about re: abuse/neglect, or is this 
something where we can work with the family, and we are very 
family focused.
    And I think that that is a really important sort of system 
to protect because I think it really helps us to make sure that 
we are doing the job with young people and allowing them to 
come in and get safety while we figure out what is going on. 
And I just want to say that in the vast majority of cases we 
are talking about young people where we call the family within 
a very short period of time. We do not usually take the 72 
hours. But it allows for the legally--that we are protected at 
offering that space for a young person so that they can be 
safe.
    Senator Daines. Okay. I am out of time, but thank you for 
standing up for the dignity for every human being, especially 
those who are most vulnerable. I appreciate that.

              YOUTH KNOWLEDGE REGARDING AVAILABLE SERVICES

    Senator Collins. Thank you very much, Senator, for your 
participation today. Brittany, one of the witnesses mentioned 
that when a teenager finds that he or she is homeless, they 
frequently have no idea where to go. Could you tell us how you 
learned where to go for help? How did you know of New 
Beginnings?
    Ms. Dixon. So like I said in my testimony, one of the 
places I was living at, they give me a domestic violence phone 
number, but I did not know at the time it was, and they 
redirected me to New Beginnings. First thing first was the 
phone interview, and then I was told that I needed a letter to 
prove that the place I was staying I could no longer stay 
there. I could not stay there any longer because the place I 
was at had Section 8 housing, and they were worried that if 
they signed the paper it would be found out that they were 
keeping me even though they could not have me there because of 
the rules.
    The person I needed to write off the letter was very 
hesitant on it. It involved getting into social services, and 
like I just said, with the whole Section 8 housing, it made 
things complicated. Eventually I did get it signed, though. If 
I did not get it signed, I would either needed to be in a 
shelter or get it signed by my mom. And at the time there was 
no way I was going to get it signed by my mom. Our relationship 
at that point was really, really rocky. So I would have been in 
trouble if I could not have gotten that documentation to prove 
I was homeless.
    Senator Collins. Thank you. I think that is very helpful 
for us to hear as we try to figure out the barriers that young 
homeless people face.

                   YOUTH EXITING CHILD WELFARE SYSTEM

    Ms. Shore, I am very interested in the issue of children 
aging out of the foster care program and what happens to them 
because from what I am hearing they often get a pat on the back 
and, you know, are told good luck to you, and given directions 
to the nearest adult shelter. And that is clearly a recipe for 
disaster.
    Could you share with us your thoughts on whether the child 
welfare program is doing a sufficient job to prepare young 
people for the transition out of foster care? Are we missing an 
opportunity for a better outcome?
    Ms. Shore. I know that there is a lot of work that is being 
focused now, but certainly when we know that--I think it is 
still 25 percent acknowledged young people coming out of child 
welfare becoming homeless, we know we are not doing enough of a 
job within the system. And I think that what there needs to be 
is a great deal more recognition of the kinds of things that 
are needed to help young people truly become independent, you 
know. It is helping with making sure that the education and the 
employment is really helping them towards self-sufficiency.
    But also for most young people, you know, they are living 
with their parents until age 25, 26. So we need to recognize 
that a lot of these young people do not have all of what they 
need yet when they are coming out of care at 21. In the 
District it is 21 or 18. So there is much more that needs to be 
done. We know that we--all of our system sees many, many young 
people who are coming out of child welfare, and that is a very 
sad circumstance certainly.

            BEST PRACTICES FOR ADDRESSING YOUTH HOMELESSNESS

    Senator Collins. I think it is, too, and one that really 
cries out for some attention. Ms. Lauper, the staff of the True 
Colors Foundation has done a lot of traveling around the United 
States. I think that is wonderful, and I learned about that 
last night when we were all together. And could you talk a 
little bit about the kinds of best practices you are sharing or 
how you connect people?
    Ms. Lauper. There was a few key things to successfully 
collaborating with people, and one of them is to find out what 
your common goals are, which everybody knows is homeless youth. 
But once you know what your common goals are and you talk to 
different providers, you can find out what they know, some 
other guy does not know, so the network is very important.
    And we are coming--are we allowed to say that, True You? We 
partnered with one of the producers of the show that I did who 
was one of these--it is a MAISIE group. And they work with 
corporations on training corporations, and they do it online. 
So we found that we have a form that we are working on for the 
providers who want to learn more about how to deal with these 
LGBT kids and do not know. And they fill out the form to see 
where the gaps are, and then you go online and there is True 
You because of True Colors. And it is easy to find, and then 
you can learn what it is you have to learn. And because there 
is so much of a turnover with the providers to have it online, 
it is something that you can constantly go to, too, and be 
updated.
    Senator Collins. Thank you. Senator Reed.
    Senator Reed. Well, thank you, Ms. Chairwoman. One of the 
impressions that I think has to be put on the table is that we 
have all these rules and regulations that are preventing people 
from accessing all these available units that are just sitting 
out there waiting for occupation. My impression is--yes. My 
impression is we have resource constraints which force us to 
create rules to further--essentially distinguish people simply 
because we do not have capacity. So the issue here is as much 
resources as it is the rule making.
    I think we have to--as we have all discussed, we have to 
make the rules much more inclusive. We have to make the 
documentation much more accessible to young people, et cetera. 
But are we not facing just a significant constraint on the 
amount of units that are available to put these young people 
in?

                           LACK OF RESOURCES

    Ms. Shore. I think that that is, you know, absolutely true, 
and I think that it is--but, you know, what I tried to say in 
my testimony is just that the urgency that we feel on the 
ground is large because these are young people whose childhood 
is involved here. And so, you know, we have the circumstance 
where they are coming up against systems that are supposed to 
be there to help and, you know, are not able for whatever the 
reason, and that is part of it. It is very hard to--you know, 
the rules should be easier to manage, and yet they are not. So 
what is the reason? That is a very good question.
    Senator Reed. No, I get it, but, you know, there is all 
this--well, why did this home with a young child not get the 
shelter is because there is a limited number of facilities that 
are adapted to, capable of dealing with women with young 
children. You are not going to put her into a male single 
facility because they are not very--and if we do not literally 
put our money where our mouths are and expand the supply, this 
demand is going up, and you are going to continue to try to do 
what people do. You make up rules----
    Ms. Shore. May I say one more thing----
    Senator Reed. Yes, ma'am.
    Ms. Shore [continuing]. Which is that I think that is 
absolutely true. I think youth have to become a priority. There 
has to be priority given in order for them to be able to access 
these services.
    Senator Reed. I agree.
    Ms. Shore. To access whatever it is.
    Senator Reed. But we also have to be very realistic and say 
as they become a priority with limited resources, other people 
lose out who previously have. I mean, unless we can put in 
resources----
    Ms. Ho. May I speak to that, sir?
    Senator Reed. And, you know, Senator Collins and I 
confronted this issue of sequestration where the resources 
could be constrained so severely that, you know, it gets even 
harder and harder to respond. But I think that is a point that 
I wanted to get out on the table.

                    TRANSITIONING FROM HOMELESSNESS

    But one final question to Ms. Lauper. We were speaking last 
night, and one of the things that impressed me among many 
things was the notion of permanent connections, that the 
transition from homelessness is not just the facility and a 
place to stay for a while, but it is making a connection with 
somebody that can mentor you, that can give you that sort of 
push. And I think, Brittany, you probably have the same 
experience. So Cyndi and then Brittany, and then I have one 
other thing to do.
    Ms. Lauper. Well, you have to have stability to continue; 
otherwise, it is a revolving door. Some kids because they are 
all different, they need a little longer term care, which is 
something that Jennifer was addressing, and I know that there 
are limited sources. I mean, that is what has been boggling my 
mind now, how to get more resources, and how to spread out and 
keep making connections to bring more people together to fix 
it, because short-term care is just a revolving door, long-term 
care and people that they can call. They need somebody to call 
and talk to.
    Just like, and I hate to make this analogy because I do not 
want to make everybody crazy. But just like if you were sick or 
you had--let us say you had cancer. Well, would you not call a 
cancer survivor to help you survive, right? I mean, or 
alcoholics, they have a sponsor. If you are in trouble, you 
need a sponsor, and sometimes it is not your parent.
    Senator Reed. Brittany, do you have a comment?
    Ms. Dixon. What I liked about New Beginnings is it was not 
just a place to stay. It was not here is your place, and that 
is all. They helped me with a lot of resources because I was 
not completely sheltered, but I was like bus system, what is 
that? Insurance, how do I get that, because growing up I did 
not have insurance either. So not just the here is your place, 
but they also offered help. And then Victor with the one-on-one 
support, like helping me with what I needed, including college 
and everything, was very helpful as well.

                     RECOGNITION OF MEGHAN MCCARTHY

    Senator Reed. Thanks very much. I want to thank the 
Chairman for this and the panel for extraordinary testimony. 
Thank you very, very much. But I have something that I must do, 
and the chairman is going to allow me to do this. This is the 
last hearing for Meghan McCarthy of my staff. Yes, bravo. No, 
you can cheer.
    Meghan, she is terrific. She has worked for the housing 
issues and for this subcommittee for 13 years in dedicating 
countless hours to innovating new housing initiative, the 
HEARTH Act. All the things we were talking about today she has 
had her hand in it: recommending important investments in HUD's 
affordable housing programs, and we talked about supply. She 
was involved in that. She is moving back to her home State of 
Massachusetts to pitch for the Boston Red Sox, which are 
desperate.
    And to help develop affordable housing actually. So we wish 
her the best of luck, and thank you very, very much. Thank you, 
Madam Chairman.
    Senator Collins. Thank you, Senator Reed, and I want to add 
my best wishes as well. She has made a real difference over the 
years and will be missed. But I am happy that she is going home 
to New England, and I know that you are as well.

         DIFFERENCE BETWEEN URBAN AND RURAL YOUTH HOMELESSNESS

    I am going to submit one more question for the record, but 
I just want to raise the issue before we adjourn, and if we had 
more time I would direct it to Ms. Ho. And that is I want us to 
think about the differences between serving urban homeless 
youth and rural homeless youth. In Portland, Maine, there are 
many more services for homeless youth than there are where I 
grew up in Caribou, Maine, in a far more rural part of the 
State close to the Canadian border.
    And we need to remember that that homeless young person, 
whether they are from a very tiny rural town or a large urban 
dwelling of cities, both have the same kinds of needs. And yet 
the services in rural America are likely to be far less 
available. So I hope for the record that you will give me any 
thoughts you might have on how we can ensure that those young 
people in rural America who are homeless are not left behind 
without services, without shelter, without help. And for those 
of us who represent States that are large and rural, this is a 
real issue. And I do not pretend to have an answer to it, but I 
am hoping that perhaps you do.
    I do want to thank this panel, which I think has been 
superb. Each one of you--Cyndi, Jennifer, Deborah, Brittany--
has added so much to our understanding. I am actually not 
surprised because I have found that when we have all women on a 
panel that we frequently have our best hearings, with all due 
respect.
    Senator Reed. Would you like me to bring the car around 
now, Madam Chairman?
    Senator Collins. But each of you brought a different 
perspective, one that was very valuable. And our subcommittee 
usually focuses on just budget hearings. We hear from the 
agencies on the President's budget request, and we try to write 
our bills on time. It is unusual for us to delve into a 
particular program, a particular issue. And I think that tells 
you how much the ranking member, Senator Reed, and I care about 
this issue, and you are helping us to make sure that we get it 
right to the extent that we can.
    So thank you so much for being here personally, for adding 
your personal celebrity in the case of Cyndi Lauper to this 
hearing.
    Ms. Lauper. Do I sing now?
    Senator Collins. Listen, I have a feeling the audience 
would love that, but I will tell them to go on YouTube. And to 
Jennifer Ho, thank you for sharing your expertise and passion. 
Deborah Shore, as a frontline provider, really important that 
we heard from you today. And Brittany Dixon, most of all, I 
want to thank you for your courage in sharing your personal 
story with the United States Senate today. Thank you so much. I 
am very proud of you.

                          SUBCOMMITTEE RECESS

    The hearing record will remain open until next Friday, May 
8, for the submission of any additional testimony or questions.
    I, again, appreciate your being here today. This hearing is 
now adjourned.
    [Whereupon, at 10:56 a.m., Wednesday, April 29, the 
subcommittee was recessed, to reconvene at a date and time 
subject to the call of the Chair.]


              MATERIAL SUBMITTED SUBSEQUENT TO THE HEARING

    [Clerk's Note.--The following outside witness testimony was 
received subsequent to the hearing for inclusion in the 
record.]
        Prepared Statement of First Focus Campaign for Children
    Chairman Collins, Ranking Member Reed, and Members of the Senate 
Committee on Appropriations Subcommittee on Transportation, Housing and 
Urban Development, and Related Agencies, thank you for the opportunity 
to submit this statement for the record.
    First Focus Campaign for Children is a bipartisan children's 
advocacy organization dedicated to making children and families a 
priority in Federal policy and budget decisions. Our organization is 
committed to ensuring that all of our Nation's children have equal 
opportunity to reach their full potential and we know that homeless 
children and youth in particular face many barriers to achieving 
success.
    In the 2012-2013 school year, the Department of Education (ED) 
identified 1,258,182 homeless children and youth enrolled in public 
schools. This is the highest number on record and an 8 percent increase 
over the previous school year. The number of homeless children in 
public schools has increased 85 percent since the beginning of the 
recession (the 2006-2007 school year).
    In addition, for the first time, school districts in were required 
to report whether homeless students were living with their parents, or 
on their own. School districts identified 75,940 unaccompanied homeless 
youth in the 2012-2013 school year.
    Most homeless students do not live in shelters. Instead, they stay 
in hidden, precarious situations--such as in motels, or living with 
others temporarily because there is nowhere else to go. This is because 
often there is no family or youth shelter in their community, shelters 
are full, or shelter policies exclude them. Rural, suburban, and small 
city children, youth and families face additional hurdles, because more 
than half of HUD-funded emergency shelter beds are located in major 
cities.
    Many families and unaccompanied youth stay wherever they can, 
moving from a shelter one night, to a couch in someone else's home, to 
a motel, to yet another person's couch or basement floor. Yet where 
they lay their head does not determine their housing or service needs, 
for these situations are often chaotic, unstable, overcrowded, and 
dangerous--resulting in negative emotional and health outcomes for 
children and youth, as well as putting them at risk of physical and 
sexual abuse and trafficking.
    Too often these youth are forced to engage in survival sex, meaning 
they trade sex for a place to stay. The Urban Institute released a 
report in February that reveals the frequency of survival sex for 
homeless LGBTQ youth in New York.
    Deborah Shore testified during the hearing to seeing firsthand the 
dangers of couch surfing for youth. She discussed that even in the best 
scenario, youth have no legal rights to where they are staying, and 
could be kicked out at any moment.
    Most Federal programs--such as the Runaway and Homeless Youth Act, 
and others that address domestic violence, health, education, and early 
childhood acknowledge the vulnerability of children and youth in these 
situations and recognize them as homeless.
    However, the U.S. Department of Housing and Urban Development 
(HUD)'s definition of homelessness often excludes children and youth 
who are living in motels or with others because they have nowhere else 
to go. As a result, these children and youth are often ineligible for 
Federal homeless assistance services, such as emergency shelter, 
transitional housing and permanent supportive housing, which are 
critical to helping them achieve stability.
    As discussed during the hearing, in order for homeless children in 
families or unaccompanied youth to be considered homeless by HUD and 
thereby eligible to access these services, they have to be already 
living in an emergency shelter, living on the street or in a car, or 
prove that they are at imminent risk (within 14 days) of losing their 
temporary residence through documentation from the motel or person that 
is allowing them to stay.
    This is problematic for several reasons. Children and youth staying 
with others are vulnerable to predators, including traffickers; these 
criminals are unlikely to make a written or verbal statement about how 
long a child or youth can stay. Families and unaccompanied youth 
staying with others out of necessity are often breaking lease 
agreements by exceeding occupancy and owners or renters of this housing 
are unlikely to provide a statement that anyone is living there.
    Brittany Dixon referenced this issue in her testimony. She realizes 
that she was fortunate that the renter where she was staying was 
willing to provide her with documentation stating that she could not 
stay longer much longer, and this was the only way she could eventually 
access the services at New Beginnings. She testified that she would 
have been in trouble if she were not able to access this letter.
    Mobility is proven to be harmful to children and youth's 
development, yet current law and regulations require families and youth 
to move--and document their moves--in order to be eligible for 
assistance.
    These bureaucratic rules not only cause additional trauma for 
homeless children and unaccompanied youth, but they are also a waste of 
precious homeless service dollars. Time and again, service providers 
such as Sasha Bruce Youthwork are forced to put families and youth into 
emergency shelters just in order to qualify them for services.
    In addition, by not defining these homeless children and 
unaccompanied youth as homeless, HUD is masking the nature and level of 
need in communities, making it much more difficult for these 
communities to raise awareness and attract non-Federal sources of 
funding. In communities where the real need is known, non-Federal 
funders are more likely to contribute.
    For example, when advocates in suburban Minnesota, Sacramento CA, 
and rural Wyoming used the Department of Education's definition to 
raise awareness about youth homelessness, local government, community 
foundations and others contributed funding for youth drop-in centers, 
housing programs and emergency shelters. The broader definition 
revealed the true extent of the problem and helped them raise funds for 
more services.
    We greatly appreciate Congress's efforts so far to address the 
needs of homeless children and youth and remove the eligibility and 
access barriers that too often prevent them from accessing critical 
services.
    The Homeless Children and Youth Act of 2015 (S. 256), sponsored by 
Senator Dianne Feinstein and Senator Rob Portman would amend the U.S. 
Department of Housing and Urban Development's definition of 
homelessness to include unaccompanied youth and homeless families who 
are certified by HUD Homeless Assistance Programs or public housing 
authorities as lacking a fixed, regular, and adequate nighttime 
residence, including those temporarily sharing the housing of others 
due to loss of housing, economic hardship, or a similar reason, or 
staying in a hotel or motel.
    It would also include unaccompanied youth and families who are 
certified as homeless by the program director or designee under the 
following Federal statutes: Runaway and Homeless Youth Act; Violence 
Against Women Act; Health Care for the Homeless Program; Education for 
Homeless Children and Youth program (McKinney-Vento education 
subtitle); Higher Education Act; Head Start Act, and Child Nutrition 
Act.
    Therefore, the Homeless Children and Youth Act eliminates complex 
documentation requirements for ``proving'' homelessness, such as 
evidence of multiple moves, or length of time spent without housing. A 
HUD homeless service provider could make a simple determination that a 
family or youth in a motel, or staying temporarily with others, is 
eligible, or accept a referral from another Federal program.
    In addition to removing barriers to existing services, we agree 
that homeless assistance services targeted to the needs of children and 
youth are needed. Therefore, this legislation would also prohibit HUD 
from forcing communities seeking homelessness funding to prioritize 
single adults, even if the need in their community is greater among 
families and unaccompanied youth.
    Local service providers are the best equipped to evaluate which 
homeless populations have the greatest unmet needs, and where Federal 
homelessness resources are best targeted.
    We urge that these provisions be included in fiscal year 2016 
Appropriations Subcommittee on Transportation, Housing and Urban 
Development and Related Agencies bill or any appropriations language.
    We also applaud efforts to reauthorize the Runaway and Homeless 
Youth Act and encourage passage of the Runaway and Homeless Youth and 
Trafficking Prevention Act (S. 262), which would improve these programs 
to offer assistance and protections for runaway and homeless youth who 
are victims of human trafficking as well as ensure that homeless 
children and youth will not be denied services based on race, gender, 
religion, or sexual orientation.
    We greatly appreciate the leadership of Chairman Collins and 
Ranking Member Reed and look forward to working with you on this and 
other proposals to improve the well being of America's children.

    [This statement was submitted by Bruce Lesley, President, First 
Focus Campaign for Children.]
                                 ______
                                 
  Prepared Statement of the National Association for the Education of 
                      Homeless Children and Youth
    The National Association for the Education of Homeless Children and 
Youth (NAEHCY) is a national membership association dedicated to 
educational excellence for children and youth experiencing 
homelessness. Our members work in public schools, State departments of 
education, and community organizations to support the identification, 
enrollment, attendance, and success of homeless children and youth, 
from early childhood through post-secondary education.
    We witness the predation and harm, including trafficking, that 
befall children and youth who lack stable housing. Often, public 
schools are the only safety net for these youth, particularly in 
communities without safe and appropriate shelter. Under the education 
subtitle of the McKinney-Vento Act, every school district is required 
to designate a liaison for homeless students; liaisons are mandated to 
identify and serve homeless youth. These requirements make public 
schools the Nation's largest provider of services to homeless youth.
    Our members connect homeless youth to supports, including housing, 
to prevent them from falling victim to trafficking and other harm, so 
that they may continue their schooling and look forward to brighter 
futures as educated adults. However, our efforts are often stymied by a 
severe lack of services for children and youth, which are caused and/or 
exacerbated by restrictions and policies imposed by the U.S. Department 
of Housing of Urban Development. We submit this testimony to add the 
experiences of public schools to the record of the subcommittee hearing 
on April 29.
The HUD Definition of Homelessness--in Statute and in Regulation--
        Creates Real Barriers to Services for Youth, Children, and 
        Families
    The written testimony submitted by Deborah Shore, Executive 
Director of Sasha Bruce Youthwork contains many statements from youth 
service providers around the country documenting barriers to services 
caused by the HUD definition of homelessness and its accompanying 
regulations. School district liaisons nationwide experience similar 
barriers and challenges when trying to assist youth to access HUD 
homeless assistance services.
    Youth service providers and school district liaisons are not 
``confused'' about the HUD definition or regulations. Providers and 
liaisons are on the ground, working directly with youth to access 
services, but finding real, insurmountable roadblocks in HUD's rules 
and priorities.
    The documentation and paperwork requirements imposed by HUD's 
eligibility regulations are clearly stated at 24 C.F.R. Sec. 583.5. 
These official regulations do not permit youth or families to self-
certify; rather, they require:
    `` . . . an oral statement by the individual or head of household 
that the owner or renter of the housing in which they currently reside 
will not allow them to stay for more than 14 days after the date of 
application for homeless assistance. The intake worker must record the 
statement and certify that it was found credible. To be found credible, 
the oral statement must either be verified by the owner or renter of 
the housing in which the individual or family resides at the time of 
application for homeless assistance and documented by a written 
certification by the owner or renter, or by the intake worker's 
recording of the owner or renter's oral statement. If the intake worker 
is unable to contact the owner or renter, be documented by a written 
certification by the intake worker of his or her due diligence in 
attempting to obtain the owner or renter's verification, and the 
written certification by the individual or head of household seeking 
assistance that his or her statement was true and complete.''
    Guidance alone will not be sufficient to remove this regulatory 
barrier; HUD must change its regulations to allow people who work 
directly with youth, in whom youth have placed their trust--educators 
and youth providers--to certify that youth meet the HUD definition of 
homelessness.
    Regulatory documentation requirements for youth and families in 
other categories of the HUD homeless definition (including those for 
youth who are fleeing or attempting to flee violence) are equally 
unrealistic and onerous for youth and for youth and for families. These 
regulations, too, must be changed.
    While the HUD regulations for proving homeless status under the HUD 
definition of homelessness create barriers to access, the statute 
itself is the larger challenge. Under the statute at 42 USC 11302, 
youth and families who are in imminent danger of losing their current 
housing situation are eligible for homeless assistance only if they can 
stay there for 14 days or less, have no subsequent permanent place to 
go, and no support networks needed to obtain other housing. The 
fourteen-day requirement in statute does not reflect the reality of 
youth and family homelessness. Youth and families never know how long 
they will be able to stay at any one location. Moreover, they are often 
trying to stay longer, in order to increase stability in their life. 
They endure horrific circumstances that jeopardize their health and 
well-being, and are afraid to ask the person who is giving them a place 
to stay for anything more. For these and other reasons described in the 
testimony of Deborah Shore, HUD's statutory requirement of 14 days is 
at odds with what we know about the dynamics of youth and family 
homelessness.
    Similarly problematic is the statutory requirement for youth and 
families who are homeless under other Federal definitions of 
homelessness to move repeatedly, endure long periods of homelessness, 
and experience numerous barriers to self-sufficiency before they are 
eligible for HUD homeless assistance. This requirement imposes 
conditions for assistance that force youth to move and stay homeless 
for a longer period of time in order to receive help. The regulations 
that accompany this provision are absurd in their specificity and level 
of documentation required; they fill nearly an entire page of the 
Federal Register.
    Finally, the HUD statute includes in its definition of homelessness 
people staying in motels that are paid for by government or charity, 
but excludes people saying in motels for more than 14 days if they are 
using their own income. Again, this requirement is out of touch with 
the reality and the needs of youth and families. Families and 
unaccompanied youth who pay to stay in motels have unstable and meager 
sources of income; they never know how long they will be able to stay 
there. Forcing them to use up their minimal income until they have less 
than 14 days means less money for food, diapers, clothing, and other 
necessities. Moreover, motels where homeless youth and families stay 
often house sexual predators and criminals, as well. They can be 
violent places and are not equipped to meet the physical and other 
developmental needs of children and youth. Forcing children and youth 
to stay there longer as a condition of receiving assistance is harmful.
HUD's Priority on Chronic Homelessness Comes at the Expense of Services 
        for Youth, Children, and Families
    Since the early 2000's, the Federal Government has fully focused 
its energy and funding on one subset of people experiencing 
homelessness--those who are ``chronically homeless.'' Chronically 
homeless people (individuals or adult heads of households) must meet 
HUD's definition of homelessness, have at least one disabling 
condition, and experience homelessness four times over 3 years, or 
continuously for 1 year. HUD has changed the way it scored local 
applications for homeless assistance funding and used the full extent 
its regulatory power to maximize services for chronically homeless 
people in every community in the country, regardless of local 
circumstances and needs.
    The result of this priority is fewer programs and beds for homeless 
youth and families. As noted in an analysis by the Institute for 
Children, Poverty, and Homelessness, funding targeted toward permanent 
supportive housing (which primarily serves single adults and a very 
small subset of homeless families) has increased while funding for 
transitional housing and supportive services (which are appropriate and 
effective interventions for youth and families) has decreased. The 2014 
Annual Homelessness Assistance Report to Congress (P. 58, Inventory of 
Beds) makes this trend quite apparent.
    Targeting assistance to people who currently meet the definition of 
chronically homeless does nothing to prevent chronic homelessness from 
happening in the first place. While some of today's chronically 
homeless adults are receiving supportive housing to end their 
homelessness, the relegation of children and youth to the last priority 
of the Nation's plan to end homelessness means there will be a 
continuous flow of homeless young people falling through the cracks, 
many to become ``chronically homeless'' as the system fails them over 
time.
    Put plainly, child and youth homelessness is an incubator for 
chronic homelessness. Failing to recognize the reality of child and 
youth homelessness and to prioritize efforts to address it is creating 
chronic homelessness today and far into the future. This is especially 
true in light of the fact that youth homelessness cannot be separated 
from family homelessness. Homeless youth are at particularly high risk 
for teen pregnancy; research indicates as many as 20 percent of 
homeless youth become pregnant.\1\
---------------------------------------------------------------------------
    \1\ Runaway and Pregnant: Risk Factors Associated with Pregnancy in 
a National Sample of Runaway/Homeless Female Adolescents. Retrieved 
``http://www.ncbi.nlm.nih.gov/pmc/articles/PMC2742657/Published online 
Apr 11, 2008.
---------------------------------------------------------------------------
                            recommendations
    Allow adults who are already working with homeless children youth--
in schools and in Runaway and Homeless Youth Act programs--to certify 
their status for eligibility under the HUD definition of homelessness. 
Homeless youth are much more likely to confide the sensitive details of 
their living situations to school counselors, teachers, and youth 
service workers than they are to simply walk into an emergency shelter 
and talk to strangers--if emergency shelters even exist. Allowing 
professionals who are authorized under other statutes to take care of 
the paperwork removes barriers, and expedites services. Ultimately, 
HUD's statutory definition of homelessness must be changed. However, 
the Appropriations Committee should include language in the fiscal year 
2016 appropriations bill to allow youth professionals and educators to 
certify under the current definition.
    Allow communities to direct existing HUD Homeless Assistance 
resources to the populations that they identify as most in need, and to 
the programs best suited to those populations. The Appropriations 
Committee should return the Continuum of Care process to its original 
purpose and function: allowing communities to conduct a needs analysis 
and be held accountable for all populations that they identify locally. 
The imposition of a national priority by HUD has defeated the purpose 
of the Continuum of Care, and lead to a loss of services for children 
and youth. Youth and families, in particular, benefit from transitional 
housing and supportive services. If communities can demonstrate that 
these programs are effective in preventing and ending homelessness, HUD 
should not disincentivize funding them. Similarly, service providers 
should be allowed to conduct triage based on factors more relevant to 
safety and well-being than where a youth or family happened to find a 
place to stay the night or week before. The move to Coordinated 
Assessment underscores the necessity of vulnerability indices that 
match the reality of child and youth homelessness.
    Require communities to include data from public schools, Head Start 
programs, and Runaway and Homeless Youth Act programs in applications 
for funding, in addition to the Point in Time Count. HUD's definition 
of homelessness keeps youth and children invisible. In contrast, real 
numbers draw support from public and private sources. To quote the 
Center for Youth Services in Rochester, ``It is a vicious circle--
because HUD does not include youth who are hopping from unreliable 
relative to potentially unsafe acquaintance each night (instead of 
risking sleeping out on the streets), they aren't counted as homeless 
so shelter beds are not allocated. And since there are not enough 
shelter beds for youth and young adults, they continue to have to rely 
on hopping around in order to survive.'' A more realistic definition of 
homelessness will lead to more resources from public and private 
sources, not less.
    We are grateful to the Committee for holding a hearing on youth 
homelessness, and for keeping the record open so that we might provide 
this additional testimony.
                                 ______
                                 
     Prepared Statement of Sea Haven's Transitional Living Program
    My name is Melinda Lautzenhiser and I am a Program Director with 
Sea Haven's Transitional Living Program. My staff and I work with 
homeless, runaway and at-risk youth. We operate in a beach town that 
welcomes over 4 million visitors each year. Along with the tourists, 
numerous teens and young adults flock to the area. The youth are often 
running away from physical and/or sexual abuse, neglect, fractured 
families and other trauma. They come to our area dreaming of a better 
life. They assume that jobs and housing are plentiful. Unfortunately, 
the job market here is competitive and seasonal. The money in their 
pocket is quickly gone and they find themselves with nothing and 
nowhere to go. The saddest part is that there are seasoned homeless, 
criminals, drug dealers and pimps waiting for them.
    The first thing that usually happens with youth on the streets is 
that their ID is stolen. Now it is impossible for them to get a job. 
They are at the mercy of the streets. That's where Sea Haven steps in. 
Our Street Outreach program provides emergency ``gateway'' services 
like food, clothing, crisis counseling, hot showers and laundry 
facilities for the youth. The program also helps with bus tickets home, 
once a safe connection can be made with a family member. The Sea Haven 
Transitional Living Program helps the youth get their ID; communicate 
with family; get medical, dental, mental health and substance abuse 
referrals as well as referrals for housing and jobs. We also offer life 
skills, group, individual and family counseling. Our goal is to help 
homeless youth become working members of society, living independently 
and contributing to our community in a positive manner. In other words, 
it is the mission of Sea Haven ``to improve the overall well-being and 
safety of homeless forgotten youth ages 13 up to 21 by extending a 
helping hand to those youth whose lives may be in disarray''.
    The HUD definition of homelessness presents a challenge for us. 
Youth living in hotels they pay for are not considered homeless. Many 
of the lower end hotels in our area have become a substitute for low 
income housing. We often have groups of teens living together in one 
hotel room surviving day by day. These hotels are known for various 
exploitation crimes such as prostitution and slave labor. Not to 
mention drug dealers that prostitute the youth and convince h/she that 
it is the only way of life. Under HUD definition, these youth are not 
considered homeless and resources to help them are limited to none.
    Additionally, youth living with relatives or friends are not 
considered homeless. We have many youth that have no choice but to live 
from one friend or relative to another, which is what is called ``couch 
surfing''. Under HUD definition, they do not qualify for services until 
they have exhausted all options and are living on the dangerous streets 
or in a homeless shelter. Our youth are young, vulnerable and often 
naive. They don't understand they are in a dangerous situation until 
it's too late.
    The HUD philosophy of ``Housing First'' does not always fit the 
emergency needs of youth 18 and older. Through RHY funding the program 
is able to assist homeless street youth up to age 21 and HUD considers 
this age to be an adult. The HUD categories for permanent supportive 
and permanent housing are disability, chronic homelessness, veteran, 
and unaccompanied youth. Many of these youth ages 18 -21 may not be 
chronic homeless, but have become homeless for a period of time due to 
abuse, neglect, or just `thrown away'. So the HUD guidelines are 
definitely contradictory to the RHY philosophies. Sea Haven first has 
to meet the emergency needs and then help the youth work towards 
independence and self-sufficiency so permanent housing or even 
permanent supportive housing first may not be an option. Rarely does 
Sea Haven have a youth that has completed some goals and prepared to 
move into a permanent housing slot.
    One of the challenges that Sea Haven faces is that many of our 
youth are not considered homeless for the PIT count. Those who are 
living in hotels or with friends/relatives are not included in the 
count so the homeless youth picture is not accurate. In addition, the 
McKinney Vento statistics only reflect those youth registered in school 
and again not enough sufficient information is given on the living 
situation of those youth who may still be living with family members 
who are homeless but the definition of homeless is different than HUD's 
definition.
    Secondly, the current HUD priorities seem to limit the eligibility 
of youth. Those living in hotels, paying their own way week-to-week do 
not qualify for HUD funding. There are only three choices for emergency 
shelter in our community. One requires a drug screen before admitting 
clients, another requires the youth to have a job and no criminal 
background and a third is at capacity. The youth we work with get 
caught up in a cycle of poverty. Some youth are paying well over $1000 
per month to live in substandard motel rooms because they don't qualify 
for assistance and can't save up enough money for a rental deposit, 
first month's rent and utility hookups. Sea Haven can provide incentive 
to assist with rental income but rarely is it enough to cover 1 month's 
rent.
    In our community, there is a tremendous need for transitional 
housing for youth. Our agency offers supportive services but it is 
difficult to make a lasting impact when youth are in precarious housing 
situations. It is also in the youth's best interest that they have 
limited interaction with adults they encounter in a typical homeless 
shelter setting.
    Long term rental assistance is also needed in order to move youth 
into more permanent housing situations. Sea Haven's goal is that youth 
will sign his/her own lease and live independently as they work on 
goals stated in their personal goal plan. ESG funding would greatly 
provide more resources for young adults 18-21 in the Myrtle Beach, 
Horry County area. Currently there are no other RHY programs in Horry 
County and no other Street Outreach-`drop-in' centers in South Carolina 
to assist youth ages 13 up to 21 years of age.

    [This statement was submitted by Melinda Lautzenhiser, Program 
Director, Sea Haven's Transitional Living Program.]
                                 ______
                                 
                    Prepared Statement of YouthCare
    Dear Chairman Collins and Ranking Member Reed: Thank you for the 
opportunity to submit additional testimony on the issue of youth 
homelessness and the Department of Housing and Urban Development's 
efforts to prevent and end it. Homeless youth and young adults have 
different service needs from older adults and require interventions and 
housing options designed for them. Many are on the streets after 
experiencing great trauma and instability in the home. Most move 
between couch-surfing, shelter, and other locations as they work to go 
to school, find employment, and find more stable housing.
    Current HUD documentation requirements make it challenging for 
those who are couch-surfing to access housing through Coordinated Entry 
in the youth and young adult system or the family system. Clients 
seeking housing through the family system are told that they are not 
eligible for services if they are couch-surfing. Clients in the youth 
system must furnish a letter documenting that they are at imminent risk 
of losing housing in order to be considered for a housing referral. 
These letters are difficult, if not impossible, for our clients to 
obtain if they are living with a person in Section 8 housing, or with a 
domestic violence aggressor, or in other potentially unsafe situations.
    Further, HUD's outcome measurement prioritizes exits to permanent 
housing, a metric which is geared toward an adult model. Transition-
aged-youth are unlikely to be lease-holders and are often working on 
building independent living skills. As a service provider, I consider a 
move from a lower-barrier transitional living program to a higher-
barrier transitional living program to be a positive step, but HUD does 
not. This favoring of exits to permanent housing over transitional 
housing disproportionately affects youth programs' performance in local 
Continuum of Care ranking of projects, and threatens their ongoing 
funding.
                            about youthcare
    For more than 40 years, YouthCare has been the leading provider of 
services to homeless and disadvantaged youth in Seattle/King County. 
Our mission is to build confidence and self-sufficiency for homeless 
youth by providing a continuum of care that includes outreach, basic 
services, emergency shelter, housing, counseling, education, and 
employment training. YouthCare's model is designed to provide a safe 
and supportive environment for young people to exit situations of 
trauma and crisis, stabilize, and work towards building life, 
education, and employment skills. Through our system of coordinated 
care and services, YouthCare serves nearly 1,500 young people, ages 12-
24, annually.
    YouthCare operates a street outreach program to connect with youth 
who are not yet ready to walk through our doors, as well as a drop-in 
center where youth can have a hot meal, access showers and laundry, and 
connect with a caring adult. We have three emergency shelters, 
including a federally-funded Basic Center Program, providing emergency 
shelter to minors ages 12-17. Our four transitional living programs and 
two independent living programs provide youth with a stable living 
environment where they can learn life skills, work on education and 
employment goals, and overcome mental health or chemical dependency 
challenges. Our education and employment programs, including 
YouthCare's YouthBuild, a federally-funded job training program, help 
homeless youth gain the skills and credentials they need to achieve 
independence. Every program is supported through a strong case 
management team that helps youth set and realize goals, handle 
setbacks, and celebrate successes.
                      definitions and eligibility
    The documentation required to prove eligibility under HUD's 
definition of homelessness for youth and young adults has created 
barriers to serving our community's homeless young people. Youth and 
young adults must be on the streets, in shelter, or imminently at risk 
of losing housing, meaning they will lose housing in the next 14 days. 
In order to prove their imminent risk, they are required to supply an 
eviction notice if they are the leaseholder, or a letter from person 
with whom they are staying indicating that they cannot stay beyond two 
weeks.
    Nearly every young adult (ages 18-24) coming into YouthCare's 
housing programs through Youth Housing Connection (King County's 
Coordinated Entry system) are couch-surfing or living with a family 
member that cannot support them. No young person who is trying to build 
a relationship with their family wants to then have to ask for a letter 
saying that family member won't let them stay beyond two weeks. 
Additionally, after signing an official letter, family members or 
friends may be afraid they will get in trouble for housing the youth 
longer than 2 weeks and kick them out pre-emptively.
    In other cases, the family member or friend simply will not sign 
the letter, even though the young person could be kicked out at any 
moment. This may be because they fear losing their own housing for 
writing a letter indicating that they have an additional person staying 
with them. Section 8 voucher holders, in particular, are not allowed to 
have anyone else live with them, and worry about losing their housing 
if they write a letter.
    In addition to challenges that our homeless youth and young adults 
face in accessing youth housing, they also struggle with eligibility 
into the family system through HUD. The youth and young adults we see 
at YouthCare may interact with the family system in two ways. Either 
they are homeless because their family is, and they are seeking housing 
together with their family, or they are pregnant/parenting and seeking 
family housing for themselves and their children. To receive an 
assessment through the King County Coordinated Entry system, Family 
Housing Connection, you must be sleeping outside, in a car, or in a 
shelter. This forces the most vulnerable youth--young women who are 
pregnant or parenting--to sleep outside to qualify for housing. Those 
sleeping in shelter do qualify for an assessment, but as it is nearly 
impossible to find a spot in a family shelter (and those shelters do 
not accept fathers or older teenage boys), this is not a route that 
most of our youth are able to take.
    A few stories illustrate well the practical challenges facing our 
youth as they try to access housing resources in the current system.
  --A young woman lost her housing after her mother received an 
        eviction notice and disappeared. She began sleeping in her 
        truck, and arrived at YouthCare's James W. Ray Orion Center to 
        enroll in case management. As part of that process, her case 
        manager had her complete a Coordinated Entry assessment through 
        Youth Housing Connection (YHC). While waiting for a housing 
        referral, her case manager helped her make a plan so that she 
        would not have to sleep outside, which was unsafe, and she 
        began couch-surfing. After 2 months in the waiting pool, she 
        was accepted into one of YouthCare's job training programs and 
        her case manager encouraged her to update her YHC information 
        with this great news. During the update, she let the YHC 
        assessor know she was staying on a couch and could stay there 
        while she looked for other options. She was removed from the 
        YHC waiting pool and told that she would need to complete an 
        assessment again when she was sleeping outside or in a shelter 
        again, or could provide third party documentation that she 
        would be homeless within the next two weeks.
  --One of YouthCare's case managers worked with a 17-year-old girl who 
        has a three-month-old baby. She is living with her mother, who 
        is unstable and a domestic violence aggressor. After an 
        incident, a judge issued a 6-month no contact order against the 
        mother, but the daughter and her child don't have anywhere else 
        to live. Family Housing Connection will not conduct an 
        assessment because she lives with her mother, even though she 
        has a no-contact order, and her mother could be arrested simply 
        for living in the same house.
  --Our WIOA Supervisor has worked with a client for many years. She 
        had exited case management and was stably housed with her 
        husband on a farm where they were able to live in exchange for 
        his work, and it was a wonderful set up. He was fired after a 
        long stretch and they returned to homelessness, couch-surfing 
        between friends and other locations. They have a 1 year-old son 
        and she is currently pregnant; when she called Family Housing 
        Connection, they told her ``that they only help people that are 
        living in a tent, car, or shelter.'' She doesn't want to go 
        into a shelter because her husband will not be allowed to stay 
        with them.
                       prioritization of projects
    HUD prioritizes exits to permanent housing in evaluating and 
ranking projects. This exit is not always an appropriate one for youth 
and young adults, who may move between transitional living programs as 
they gain life skills and independent living skills. For example, 
within YouthCare's programs, we operate four transitional living 
programs, each with increasing levels of independence--moving from a 
lower-barrier/higher-service program to a higher-barrier/lower-service 
program is a positive step from a youth development perspective, but 
not from a HUD perspective.
    Our Supportive Services Only programs that work with youth may only 
count exits to permanent housing as a positive exit. However, helping 
someone who was living on the street or in a shelter move into 
transitional housing is actually quite a positive exit, and should be 
rewarded.
    As a result of the definition of positive exit, TLPs and Supportive 
Services Only projects tend to score lower in the Continuum of Care 
rankings, leaving them at risk of losing funding. Historically, our CoC 
has been wary of funding youth programs, and only funds them if there 
is enough funding to go around for the programs serving homeless adults 
and families.
                     funding needs in our community
    Prioritizing youth and young adults is critical to addressing 
homelessness in our community. There are three main ways we see these 
funds being utilized.
    1.   Expand transitional housing options to meet the increasing 
        needs of youth with mental health and chemical dependency 
        issues. As Coordinated Entry has been implemented, more 
        vulnerable youth (i.e. those with higher mental health and 
        chemical dependency needs) are being referred into transitional 
        housing programs without the staffing levels and training 
        available to serve them. We need to build up the staffing 
        levels and the staff capacity to serve youth with acute needs 
        safely and effectively.
    2.   Expand opportunities for Supportive Service Only projects that 
        link youth to employment programs. The New Working Zone in King 
        County is a tremendous example of how HUD funds can be used to 
        build job skills and boost employability for youth living on 
        the streets. Additionally, case management that follows youth 
        as they seek and obtain housing should be expanded to help 
        reduce returns to homelessness for youth and young adults. In 
        King County, providers are making excellent use of Supportive 
        Services Only funds in this regard, but are required to exit 
        the client as soon as they obtain housing. We would like to see 
        the case manager continue to work with the client once they 
        obtain housing.
    3.   Create emergency shelters to serve young adults ages 18 
        through 24. Youth are resistant to accessing adult shelters, 
        where they face violence, sexual assault, and exposure to drug 
        and alcohol use. Many youth that we see prefer to sleep outside 
        or to engage in survival sex over choosing an adult shelter. 
        These shelters should be tied to case management that will help 
        the young person work towards greater stability in housing and 
        employment programs.
                               conclusion
    Thank you for the opportunity to submit this testimony. Please let 
me know if you have additional questions that I can help answer.

    [This statement was submitted by Dr. Melinda Giovengo, Executive 
Director, YouthCare.]
                                 ______
                                 
                  Prepared Statement of Youth In Need
    Youth In Need (YIN) was established in 1974 as a youth crisis 
shelter by local volunteers concerned about runaway and homeless youth 
being housed in the adult county jail. Over the years the agency has 
expanded into a continuum of services for runaway, homeless and street 
youth, as well as other at-risk children, youth and their families 
throughout eastern Missouri. It is YIN's mission to build on the 
strengths of children, youth and families so they find safety, hope and 
success in life.
    YIN's Basic Center program has operated at the same location and 
has received Federal grant funds since 1976. In the mid-1990's, YIN was 
able to expand services for runaway and homeless youth, thanks to key 
Federal funding. Street Outreach services were developed to eliminate 
youths' trust barriers with service providers and build relationships 
to help youth move into a safe and stable living environment. YIN also 
developed a Transitional Living Program to meet the needs of those 
youth who cannot safely return home. With a focus on self-sufficiency, 
well-being and safety, YIN believes that youth can establish permanent, 
healthy connections and continue on the path to a successful transition 
to independence. A belief in the resiliency and potential of every 
child and family is incorporated into all programs.
    Runaway and homeless youth come to YIN from a wide variety of 
circumstances. Family homelessness, abuse and neglect, human 
trafficking, parent death or illness, caregiver drug addiction, mental 
health needs and domestic violence are common stories. Although many 
youth seek shelter at YIN's Basic Center, a lack of trust in adults 
causes many of these young people bounce between friends, family 
members or acquaintances, staying for only a night or two at a time. 
Others unaccompanied youth are forced or coerced to trade sex for 
places to stay. Although these youth obviously need safe housing and 
other support services, none of them are considered homeless under 
HUD's current definition, whose eligibility would require them to be 
``on the street'' or in a shelter. This precludes them from accessing 
HUD funded housing services and also prevents them from being counted 
in HUD's yearly Point in Time Count.
    YIN recognizes that early intervention is essential in preventing 
runaway and homeless youth from becoming trapped in the cycle of 
chronic homelessness. HUD's narrow definition minimizes the supports 
available for runaway and homeless youth, and the new priority focus 
areas further marginalize them. HUD's prioritization areas have shifted 
away from support services such as drop-in centers and transitional 
living, to rapid rehousing and permanent supportive housing. This shift 
is causing unaccompanied youth to fall through the cracks in the 
system.
    Rapid rehousing has been proven to decrease homelessness for those 
(primarily families) who had housing, but are newly homeless due to job 
loss, eviction, domestic violence or other circumstances. However, 
rapid rehousing is neither feasible nor appropriate for unaccompanied 
youth, who have never lived independently and are not old enough to 
legally sign an apartment lease. Although a few runaway and homeless 
youth may benefit from permanent supported housing, they aren't 
eligible until the age of 18. These HUD prioritized services do not 
meet the needs of the unaccompanied youth population.
    Runaway and homeless youth report needing interim housing, 
educational support, life skills and job training so they can be safe 
while learning to be independent. YIN and other runaway and homeless 
youth providers across the country offer these developmentally 
appropriate services to help youth become self-sufficient. Without 
these interventions, according to the National Runaway Safeline, 
unaccompanied youth are more likely to be incarcerated, drop out of 
high school and struggle with mental health and substance abuse issues. 
In addition, the longer a youth is on the street, the more likely they 
are to become a victim of sex trafficking.
    YIN recognizes that individuals experiencing homelessness across 
the St. Louis Region have many different needs. Unaccompanied runaway 
and homeless youth are extremely vulnerable and should be considered 
when making funding priorities and allocation decisions. Currently, YIN 
has 43 youth on the waitlist for its Transitional Living Program, and 
are frequently over capacity in the Emergency Shelter. YIN, and other 
youth service providers need the support of HUD for transitional living 
services, as well as low-barrier services such as drop-in centers, in 
order to provide for the needs of runaway and homeless youth. Investing 
in the stability and self-sufficiency of runaway and homeless youth 
will not only have a positive impact on them as individuals, but on the 
community as a whole.

    [This statement was submitted by Pat Holterman-Hommes, President & 
CEO, Youth In Need.]
</pre></body></html>
